<html>
<title></title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                               

                         [H.A.S.C. No. 116-41]

                    MILITARY PERSONNEL MANAGEMENT--

                     HOW ARE THE MILITARY SERVICES

                      ADAPTING TO RECRUIT, RETAIN,

                        AND MANAGE HIGH-QUALITY

                        TALENT TO MEET THE NEEDS

                         OF A MODERN MILITARY?

                               __________

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON MILITARY PERSONNEL

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                              MAY 16, 2019


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-527                      WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                                 
  


                   SUBCOMMITTEE ON MILITARY PERSONNEL

                 JACKIE SPEIER, California, Chairwoman

SUSAN A. DAVIS, California           TRENT KELLY, Mississippi
RUBEN GALLEGO, Arizona               RALPH LEE ABRAHAM, Louisiana
GILBERT RAY CISNEROS, Jr.,           LIZ CHENEY, Wyoming
    California, Vice Chair           PAUL MITCHELL, Michigan
VERONICA ESCOBAR, Texas              JACK BERGMAN, Michigan
DEBRA A. HAALAND, New Mexico         MATT GAETZ, Florida
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
                Craig Greene, Professional Staff Member
                          Dan Sennott, Counsel
                         Danielle Steitz, Clerk
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Kelly, Hon. Trent, a Representative from Mississippi, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Speier, Hon. Jackie, a Representative from California, 
  Chairwoman, Subcommittee on Military Personnel.................     1

                               WITNESSES

Burke, VADM Robert P., USN, Chief of Naval Personnel, United 
  States Navy....................................................     8
Kelly, Lt Gen Brian T., USAF, Deputy Chief of Staff for Manpower, 
  Personnel, and Services, United States Air Force...............     9
Rocco, LtGen Michael A., USMC, Deputy Commandant for Manpower and 
  Reserve Affairs, United States Marine Corps....................    11
Seamands, LTG Thomas C., USA, Deputy Chief of Staff, G-1, United 
  States Army....................................................     6
Stewart, Hon. James N., Performing the Duties of the Under 
  Secretary of Defense for Personnel and Readiness, Department of 
  Defense........................................................     4

                                
                                APPENDIX

Prepared Statements:

    Burke, VADM Robert P.........................................    71
    Kelly, Lt Gen Brian T........................................    85
    Rocco, LtGen Michael A.......................................   101
    Seamands, LTG Thomas C.......................................    57
    Speier, Hon. Jackie..........................................    41
    Stewart, Hon. James N........................................    43

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Bergman..................................................   121
    Mrs. Davis...................................................   119
    Ms. Haaland..................................................   121
    Mr. Kelly....................................................   117
    Ms. Speier...................................................   113

Questions Submitted by Members Post Hearing:

    Mr. Cisneros.................................................   128
    Ms. Speier...................................................   125
               
               
.               
               MILITARY PERSONNEL MANAGEMENT--HOW ARE THE

             MILITARY SERVICES ADAPTING TO RECRUIT, RETAIN,

 AND MANAGE HIGH-QUALITY TALENT TO MEET THE NEEDS OF A MODERN MILITARY?

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                            Washington, DC, Thursday, May 16, 2019.
    The subcommittee met, pursuant to call, at 2:28 p.m., in 
room 2212, Rayburn House Office Building, Hon. Jackie Speier 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. JACKIE SPEIER, A REPRESENTATIVE FROM 
   CALIFORNIA, CHAIRWOMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Ms. Speier. Good afternoon. The Military Personnel 
Subcommittee of the Armed Services Committee will come to 
order. I would like to welcome everyone to this afternoon's 
hearing.
    Today we will hear from the personnel chiefs from the 
Department and the four military services to discuss what they 
are doing to improve and modernize military personnel policy to 
sustain the All-Volunteer Force.
    The military personnel policy does not just involve 
military personnel; it also involves the family. We ask service 
members and their families to make sacrifices for our Nation. 
When they bravely step up to this task, we must only ask them 
to sacrifice when it is necessary--we must only ask them to 
sacrifice when it is necessary for our national security, not 
when it is required by outdated or shortsighted personnel 
policies. Our job is to recruit and retain service members who 
will allow the U.S. military to fight and win future 
challenges. A modern personnel system is a crucial tool in that 
effort.
    I spent 5 days last month visiting five different military 
installations, talking to leadership, service members, and 
their spouses so I could learn firsthand what the issues are 
facing our service members and families. These CODELs 
[congressional delegations] will continue, and I invite my 
colleagues on the committee to join me.
    There were four major issues that stood out. One was 
location of assignment and its impact on school-age children, 
especially high school age; employment for spouses who have 
professional careers; woefully inadequate childcare slots; and 
the need for more resources for sexual assault and domestic 
violence for service members and spouses.
    The demographics of service members have changed. More of 
our talented service members have talented spouses who want 
their own careers, want to contribute to the financial success 
of the family, and are starting families early in their 
careers.
    We have a force of volunteers that deserve recruiting and 
retention policies that adapt with the times, not inflexible 
bureaucratic cultures that demand conformity without offering 
new solutions.
    Military families are now making decisions not only based 
on military members' career progression but on the whole 
family's future. A small number of Americans serve in our Armed 
Forces, and they have growing expectations. Their expectations 
are merited, and we must meet and exceed them.
    The competition for the limited talent is fierce. The 
Department and the services have a great amount of flexibility 
in determining who is qualified to serve and must continue to 
look at ways to open the aperture to gain access to talent.
    We have a responsibility to take these problems seriously 
and not chalk up our system's shortcomings to the entitled 
needs and misplaced expectations of a new generation. Personnel 
policy must be shaped to respond to those currently serving, 
not those who commissioned during the Cold War.
    It is incumbent upon leadership in DOD [Department of 
Defense] and Congress to listen to and learn from those we 
serve. And we must make greater use of modern data gathering 
and survey techniques to make human resources decisions like a 
modern corporation. I believe the services need to think 
creatively and beyond their current cultures about how to 
manage people.
    The central question for today is: How are the military 
services adapting to recruit, retain, and manage high-quality 
talent to meet the needs of our modern military? I am 
interested to hear from our witnesses on how they gather 
information on what their service members value, how does that 
translate to policy, and what are each of you doing to 
incorporate the family into policies governing the career 
management process.
    Before we introduce the first panel, let me offer Ranking 
Member Kelly an opportunity to make his opening remarks.
    [The prepared statement of Ms. Speier can be found in the 
Appendix on page 41.]

     STATEMENT OF HON. TRENT KELLY, A REPRESENTATIVE FROM 
MISSISSIPPI, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Kelly of Mississippi. Thank you, Chairwoman Speier.
    And I wish to welcome our witnesses to today's hearing.
    I also want to congratulate Vice Admiral Burke on his 
nomination as the next Vice Chief of Naval Operations.
    We cannot overstate the central role that our service 
members play in making the United States the most lethal 
military in the world. This strategic advantage is due in large 
part to the high accession and retention standards that the 
military services have established and continue to maintain.
    However, in this extremely strong economy with a record low 
unemployment rate and a low propensity to serve among our young 
people, it is not surprising that the pool of eligible 
applicants is extremely small. Given the challenge in the 
recruiting environment, it is crucial that the services 
leverage every tool available to understand what motivates 
qualified individuals to serve in the military and stay.
    In addition, once qualified applicants are recruited into 
the military, it is essential that the services efficiently and 
effectively identify and retain the most talented of those 
service members. To that end, Congress has given significant 
additional authorities to the Defense Department to ensure that 
they have the flexibility to recruit and retain a talented, 
competitive, and lethal force.
    However, before making additional changes to personnel 
management, we need to clearly understand the problem. Our 
previous hearing on the topic with outside experts reinforced 
the premise that we need to clearly understand why service 
members are electing to get out of the military and to 
understand what would have kept them in the service.
    The Defense Department already has much of the data 
necessary to answer these questions, but I remain concerned 
that the Department is not maximizing their use of this 
information in order to make informed policy decisions.
    I look forward to hearing from our witnesses today about 
the current efforts to effectively retain qualified service 
members. Specifically, what data do the services use to 
understand what motivates service members to remain in the 
service?
    In addition, I am interested to hear what additional policy 
changes the services have made to the evaluation system, 
promotion system, and assignment system to identify and retain 
talent.
    I am also interested to understand this year's end-strength 
request and what those numbers will buy us in terms of 
readiness. Will the requested end-strength increases simply 
round down existing units, or will it allow the services to 
populate additional units or platforms? I am interested to hear 
about the services' goals for end-strength increases over the 
next 5 years.
    Finally, I believe family services are directly related to 
retention. The old adage is true: You recruit the soldier, but 
you retain the family.
    I am particularly concerned about the severe shortage of 
quality military childcare. Recent statistics we have received 
from the Department reveal that there are several installations 
where the average wait time for on-installation childcare is in 
excess of 180 days. This is problematic not just for working 
families but also for spouses who are hoping to look for work. 
If they have limited access to childcare, how can they seek 
employment? This is unacceptable, and I would like to know what 
the services are doing to ensure families are receiving the 
support they need, including meaningful access to childcare.
    Once again, I want to thank our witnesses and our 
chairperson for being here today and for their decades of 
service.
    And I yield back, Chair.
    Ms. Speier. Thank you, Ranking Member Kelly.
    Each witness will have the opportunity to present his or 
her testimony, and each member will have an opportunity to 
question the witnesses for 5 minutes.
    We respectfully ask the witnesses to summarize their 
testimony in 5 minutes or less. Your written comments and 
statements will be made part of the hearing record.
    Let's welcome our panel.
    First, the Honorable James Stewart, performing the duties 
of the Under Secretary of Defense for Personnel and Readiness 
at the Department of Defense.
    Welcome.
    Lieutenant General Thomas Seamands, Deputy Chief of Staff 
for United States Army.
    Vice Admiral Robert Burke, Chief of Naval Personnel, United 
States Navy. And I, too, would like to recognize that this will 
be Admiral Burke's last opportunity to testify before our 
subcommittee in this capacity.
    Congratulations on your nomination to be Vice Chief of 
Naval Operations.
    Next, we will hear from Lieutenant General Brian Kelly, 
Deputy Chief of Staff for Manpower, Personnel, and Services in 
the United States Air Force.
    And finally, Lieutenant General Michael Rocco, Deputy 
Commandant for Manpower and Reserve Affairs, United States 
Marine Corps.
    With that, Secretary Stewart, you may begin with your 
opening statement.

 STATEMENT OF HON. JAMES N. STEWART, PERFORMING THE DUTIES OF 
  THE UNDER SECRETARY OF DEFENSE FOR PERSONNEL AND READINESS, 
                     DEPARTMENT OF DEFENSE

    Mr. Stewart. Thank you, Chairwoman Speier, Ranking Member 
Kelly, distinguished members of the subcommittee. I am honored 
to appear here before you today to discuss how the Department 
of Defense recruits, retains, and manages our high-quality 
talent to meet the needs of our Nation.
    The Department is committed to the effective total force 
management, leveraging Active and Reserve military forces, 
civilian personnel, and contractors. To be effective, this 
effort must be long term in scope and vision and must always be 
focused on our service members who are at the tip of the spear.
    The military services have sustained the All-Volunteer 
Force by recruiting the best and brightest from across the 
Nation. The services are on track to achieve their recruiting 
missions this year, but they continue to face an ever-changing 
recruiting environment. A robust economy, low unemployment, and 
significant competition from the civilian sector have 
highlighted and tightened today's recruiting environment.
    Today, only 29 percent of our American youth are eligible 
for military service without a waiver, and only 2 percent are 
eligible, high-quality, and propensed to serve. So the 
Department is employing new and innovative tools to attract 
this group.
    To reach a more technologically savvy generation, the 
Department is leveraging social media and other relevant 
technologies. We have launched an integrated digital marketing 
campaign targeting not only young people but those who 
influence them the most--those parents, teachers, coaches, and 
other people in their lives who play a key role in the decision 
to join the military.
    Our Joint Advertising, Market Research, and Studies 
program, or JAMRS, folks have produced several 30-second 
commercial spots that appeal to all segments of our society, 
while utilizing artificial intelligence to analyze information, 
allowing us to reach audiences when they will be most receptive 
to DOD messaging.
    The Department and military services have varied outreach 
and marketing efforts to reach the widest audience, including 
specific activities targeted to reach talented women and 
minorities, because we rely on diverse backgrounds and 
perspectives to address the complex challenges facing our 
Nation today.
    In order to manage this diverse All-Volunteer Force, we 
appreciate the officer management authorities you provided in 
the fiscal year 2019 National Defense Authorization Act. These 
authorities give the military services new and flexible tools 
in the management and retention of the officer corps.
    And speaking of retention, military services are each 
exhibiting strong retention in the aggregate, and they expect 
to meet or exceed retention goals this year. In fact, the Army 
and the Air Force are seeing retention rates of 90 percent or 
more, rates that have not been evidenced in decades.
    Achieving and maintaining these retention rates is only 
possible if you take care of the member and their family. We 
like to say that you recruit the member but retain the family. 
We know that a commitment to the military often entails 
sacrifices, so we are making every effort to support our 
military families in ways that recognize and relieve the 
challenges that come with the military way of life.
    Authorities you granted in the fiscal year 2018 National 
Defense Authorization Act, allowing families to occupy two sets 
of quarters in different locations while retaining the higher 
basic allowance for housing, eases the burdens and disruptions 
of PCS [permanent change of station] moves and allows for more 
stability for the members, especially those with children in 
schools or for spouses with jobs.
    Concerning spouses, we know that 24 percent of military 
spouses are unemployed or underemployed. Supporting military 
spouses in their employment leads to family readiness and 
financial stability. That is why career counseling, finding 
employment opportunities, and supporting our highly successful 
scholarship program, My Career Advancement Account, are 
important.
    Also important is occupational license portability, which 
will allow spouses to transfer professional licenses and 
credentials from State to State. The Department of Defense's 
State Liaison Office has successfully worked with the States to 
streamline license transfer processing and continues to work 
with interagency and State partners to expedite or exempt 
professional licensing requirements for military spouses.
    Quality childcare is extremely important for our military 
families as well. The Department is working hard to provide 
high-quality, affordable childcare to our service members. We 
recognize the importance and impact on family readiness and are 
committed to meeting the increased demand for childcare 
services.
    Our rollout of militarychildcare.com allows families to 
register for childcare in advance of a move or before the new 
addition of a child to a family. Constructing new and 
refurbishing existing facilities, along with streamlining human 
capital practices, will facilitate the Department's ability to 
meet our service members' childcare needs.
    Thank you for the opportunity to testify before you today 
and for your dedication and support that you have given to the 
Department. I am eager to continue our work together to ensure 
that we remain the most powerful fighting force in the world 
while sustaining and empowering military families who support 
our men and women in uniform.
    Thank you.
    [The prepared statement of Mr. Stewart can be found in the 
Appendix on page 43.]
    Ms. Speier. Thank you.
    Next, we have General Seamands.

   STATEMENT OF LTG THOMAS C. SEAMANDS, USA, DEPUTY CHIEF OF 
                 STAFF, G-1, UNITED STATES ARMY

    General Seamands. Chairwoman Speier, Ranking Member Kelly, 
distinguished members of the committee, I thank you for the 
opportunity to appear before you today on behalf of the women 
and men of the United States Army.
    I have submitted a statement for the record, but I would 
like to highlight a few of the points now.
    The Army's greatest strength is our people, the 
intelligent, adaptable, professional soldiers, civilians, and 
families who sacrifice so much for our Nation. We take care of 
our people by ensuring that our personnel policies are 
relevant, compassionate, and focused on readiness. Manning is 
truly the keystone in the archway of readiness and is vital to 
our Army's ability to fight and win our Nation's wars.
    To maintain readiness and to shape the future Army, we must 
recruit diverse, resilient individuals of high character to 
fully man our formations while obtaining sustainable growth and 
maintaining quality standards.
    Further, we must recruit in a competitive market. The Army 
must also continue to retain the most qualified and talented 
soldiers, noncommissioned officers, commissioned officers, and 
civilians with the experience and skills to meet our future 
needs.
    Retention of the family is just as important as retention 
of the soldier. Thanks to you--I would like to echo the 
comments of Mr. Stewart for the work you did on the 2018 NDAA 
[National Defense Authorization Act]--we now have in place the 
authority to reimburse spouses for licensing and credentialing 
when they change stations based on their soldier's move.
    Taking care of family remains our top priority. Thanks to 
your efforts in the 2018 NDAA, we are taking steps to improve 
our quality-of-life programs across our installations. These 
areas include enhancements for our dependents' educations, 
childcare programs, hiring authorities, as well as improvements 
to family support and readiness.
    Thank you for the authorities, as well, in the 2019 NDAA 
which provided us greater flexibility in our personnel 
management. We are beginning to use the authorities granted to 
help shape the future talent base system. As such, we are 
transforming our business practices and developing innovations 
to ensure we provide a force that is optimized. We have created 
a marketplace of officers where officers and units meet, find 
optimal ways to match talent, personal and professional goals, 
while enhancing readiness.
    The Army is undertaking a comprehensive reform of our 
Officer Personnel Management System to ensure we match the 
knowledge, skills, and behaviors of each soldier and getting 
them into the right position. The Army is moving away from an 
industrial-age personnel distribution system to an information-
age market-based model. The new system will deliberately manage 
our soldiers based on optimized placement in positions that 
capitalize on their unique talents.
    The Army remains committed to giving all soldiers who can 
meet the standards of a military occupational specialty the 
opportunity to serve. We have successfully assessed and 
transferred more than a thousand women into previously closed 
occupations of infantry, armor, and field artillery.
    Department of the Army civilians are an integral partner in 
our efforts to become more lethal, enhancing our capability and 
capacity and ensuring critical support to our soldiers and 
families. We must continue to size our civilian workforce to 
meet the current and future demands.
    The Integrated Pay and Personnel System-Army, IPPS-A, is 
modernizing and transforming our human resources processes as I 
speak to change how the Army manages our most important asset, 
our people. We recently completed a very successful test of 
IPPS-A with the Pennsylvania Army National Guard. The system is 
now live in Virginia and will soon be live in DC and Maryland 
National Guard. This year, we will field the system across all 
our Army National Guard formations.
    To ensure that we are organizationally ready for combat, we 
must sustain the personnel readiness of our soldiers. The Army 
is improving personnel readiness by strengthening our soldiers, 
improving resiliency skills, and fostering a culture of trust, 
fitness, and deployability. We believe these actions will 
enhance unit readiness, cohesion, and reduce the number of 
nondeployable soldiers.
    In addition to taking care of soldiers and their families 
while they are in the Army, we are committed to ensuring their 
successful transition as they prepare for life after the 
service. Ultimately, we want soldiers to properly transition to 
productive veterans of character, integrity, and service as 
they return to their communities.
    Our Army is the most formidable ground combat force on 
Earth because of the courage and commitment of our soldiers, 
civilians, veterans, and family members who serve our Nation. 
People are the Army. These men and women who serve our Nation, 
both in uniform and out, along with their families, are our 
most important asset. For the Army to be ready, our soldiers 
and families must also be ready.
    Chairwoman Speier, Ranking Member Kelly, distinguished 
members of the committee, I thank you for your generous and 
unwavering support of our outstanding soldiers and civilians 
and their families.
    Thank you.
    [The prepared statement of General Seamands can be found in 
the Appendix on page 57.]
    Ms. Speier. Thank you.
    Vice Admiral Burke.

    STATEMENT OF VADM ROBERT P. BURKE, USN, CHIEF OF NAVAL 
                 PERSONNEL, UNITED STATES NAVY

    Admiral Burke. Chairwoman Speier, Ranking Member Kelly, 
distinguished members of the subcommittee, thank you for the 
opportunity to be here today and update you on your Navy's 
personnel programs.
    We continue to grow the Navy's manpower commensurate with 
the force structure for the Navy the Nation needs. We are 
simultaneously working to restore full manning to our existing 
fleet. This year, we will grow the Navy by 7,500 people and 
another 5,100 next year. Our fleet wholeness continues to 
improve, as evidenced by steady progress in improving fleet 
manning and closing gaps at sea even as we are growing the Navy 
at this aggressive pace.
    We still have work to do, and our success is directly tied 
to our collective commitment to consistent and full funding. 
Finding the right people is as important as making the numbers. 
The war for talent, as you have heard already, is real, and the 
competition is increasing.
    We continue to make our overall recruiting goals, the 
highest in decades, mostly due to our recruiting transformation 
efforts, innovative use of social media, and by shifting our 
``Forged by the Sea'' advertising campaign predominantly to the 
digital market.
    A combination of our Sailor 2025 programs, surgical use of 
retention bonuses, which have been aided by predictive 
analytics, and other policy levers resulted in 2018 showing the 
largest enlisted retention improvements in a decade. This is 
critical as it has allowed us to establish the deep bench of 
experienced journeymen we are going to need to develop that 
next generation of masters.
    Despite overall improvements in retention, we continue to 
face challenges in the usual critical areas.
    Our Sailor 2025 initiatives continue to expand and get high 
marks from our sailors. This program will be a critical force 
multiplier going forward. The underlying transparency and the 
flexibility it provides directly and positively impacts our 
sailors' ``stay Navy'' decision.
    We greatly appreciated the increased DOPMA [Defense Officer 
Personnel Management Act] flexibility provided in the fiscal 
year 2019 National Defense Authorization Act, and we are 
already putting each of the new authorities to work. And we 
look forward to reporting our successes to you in the near 
future.
    But as important as the programs themselves is the manner 
in which we deliver our personnel services. It has been said 
several times already today, and it is true: You recruit the 
sailor, but you retain the family. And what we ask of our 
sailors and their families is tremendous.
    But if we do a poor job of delivering basic services to 
them, like pay and travel claim liquidation, or we pile 
additional financial stress onto an already stressful event 
like a move because of our unimaginative processes, that sends 
a signal to our sailors and families that we just don't care. 
Our customer service is clearly a key retention driver.
    So we are on a path to deliver personnel services in a 
modern, simple, one-stop-shopping mobile-device-enabled manner 
with friendly, reliable call centers available 24/7 to help 
with the complex issues. That is what our sailors expect and 
deserve. And, yes, it is IT [information technology] systems, 
to a degree, but, more importantly, it is better, smarter, 
sailor-centric processes in a culture of customer service.
    So this past September, we launched My Navy Career Center, 
delivering enhanced 24/7 personnel pay and training customer 
service, just like a modern banking or insurance call center. 
My Navy Portal is our new online, one-stop personnel shop, and 
it offers a multitude of self-service options.
    In January, we began the move to My Navy Portal Mobile, 
piloting the use of commercial cloud systems without the use 
of--allowing sailors to access these systems without the use of 
their Common Access Card. By the end of this calendar year, our 
sailors will be doing most personnel business from their 
smartphones. And even the admin associated with PCS moves, one 
of the most frustrating evolutions all of us in uniform do, 
will be an afterthought so that families can concentrate on 
what matters most.
    The other angle that we are tackling is the changing nature 
of our workforce. Sixty-seven percent of our officers and over 
half of our enlisted sailors are married, and many of them are 
dual-professional couples. We have to address that reality if 
we are going to retain the family. And we launched multiple 
efforts within our Sailor 2025 portfolio to start to get after 
that.
    We have challenges that remain, and we still have a great 
deal of work to get to where we need to be if we are going to 
be truly competitive, but we are on a good path.
    And I would like to close by saying thank you for your 
support of these efforts and for your unwavering commitment to 
the men and women of the United States Navy and their families. 
I look forward to continuing our partnership, and I look 
forward to your questions.
    Thank you.
    [The prepared statement of Admiral Burke can be found in 
the Appendix on page 71.]
    Ms. Speier. Thank you, Admiral Burke.
    Next, Lieutenant General Kelly.

STATEMENT OF LT GEN BRIAN T. KELLY, USAF, DEPUTY CHIEF OF STAFF 
 FOR MANPOWER, PERSONNEL, AND SERVICES, UNITED STATES AIR FORCE

    General Kelly. Chairwoman Speier, Ranking Member Kelly, and 
distinguished members of the subcommittee, thank you for the 
opportunity to appear before you to talk about our airmen--
Active, Guard, Reserve, and civilian. America's airmen, your 
airmen, remain always there as part of the joint team, 
providing global vigilance, reach, and power in defense of the 
Nation.
    The Air Force's top priority is to build a lethal and ready 
Air Force capable of executing the National Defense Strategy-
assigned missions. At its core, building a lethal and ready Air 
Force is about people, making our airmen and their families our 
most important asset. We therefore thank you for focusing this 
hearing on how we manage, recruit, take care of, and retain our 
airmen and families, particularly so to meet the needs of a 
modern military.
    We greatly appreciate your support that you provided in the 
fiscal year 2019 National Defense Authorization Act for 
continued end-strength growth to 690,500 total force airmen. 
This growth is accelerating our readiness recovery and will 
provide lethal airmen to protect and defend our Nation.
    This past year, we focused the resources you provided on 
our frontline pacing units, the 204 operational squadrons 
required in the opening days of a peer fight. Prioritizing the 
resources you provided has allowed more than 90 percent of the 
lead packages to be ready to fight tonight, with 80 percent of 
the fleet pacing units fully ready by the end of fiscal year 
2020, 6 years faster than originally projected.
    The fiscal year 2020 requested growth to 700,000 total 
force airmen continues our readiness recovery, augments 
existing capacity in our space and cyber mission areas, and 
provides the initial maintenance and operational manpower 
needed for the KC-46, F-35, and B-21.
    Despite an increasingly competitive market for talent, our 
Active Duty, Reserve, and Air National Guard are all on track 
to meet our overall fiscal year 2019 recruiting goals.
    However, with an understanding of the keen competition for 
talent, the Air Force has recently established a total force 
recruiting service effort responsible for recruiting and 
coordinating efforts across all three components. As part of 
this effort, we recently assigned a one-star Reserve general 
officer as the Deputy Commander of the Air Force Recruiting 
Service.
    We have also established two focused recruiting entities, 
one whose focus is to outreach to youth to increase awareness 
around opportunities within our underrepresented diverse 
populations, and the second whose job is to specifically scout, 
recruit, and prepare airmen for special warfare career fields. 
Both entities have shown promise during this year.
    This tough recruiting market, coupled with the high 
investments we make in training, places an even greater value 
on retaining our airmen and our families. We therefore 
appreciate the Congress' support of special incentive pays, 
which are a critical component to complement our non-monetary 
retention incentives. The fiscal year 2019 budget included $1.2 
billion for special incentive pays, allowing the Air Force to 
retain highly skilled airmen.
    Our overall retention picture is positive, although we have 
acute pockets where we are particularly stressed, including 
among our aviators. The Air Force ended fiscal year 2018 with a 
total force pilot shortfall of approximately 2,000 pilots, with 
slightly more than half of that shortfall within our fighter 
inventory. We appreciate the Congress support for increasing 
the pilot annual cap and monthly incentive pay levels, which we 
believe had a mildly positive impact this past year.
    Overall, we find non-monetary programs even more important 
to retention and, therefore, remain focused on improving the 
life of and quality of service of our airmen and their 
families.
    Responding to survey data from members and spouses, we 
added flexibility into the officer assignment process by 
leveraging technology through our new Talent Marketplace 
assignment matching system. We believe the increased 
transparency and improved member input will have a positive 
retention influence.
    We are expanding the system to our enlisted force and 
testing it to identify airmen for yearlong deployments. We are 
also executing family moves in accordance with the Family 
Stability Act and are utilizing high school deferments to 
provide some relief from the burdens of frequent moves to our 
airmen and families.
    The Air Force is also committed to transforming the way we 
develop, promote, and retain our officer corps. We thank the 
Congress for the increased DOPMA authorities received this past 
year and are utilizing early promotion and constructive credit 
already to fill gaps in our inventory.
    With your help, we also increased support to airmen and 
families for resiliency. We increased funding for child and 
youth programs by $40 million, added 119 civilian childcare 
positions, increased offsets to support the 4,500 children who 
annually use off-base providers, and funded youth resilience 
camps.
    We also know spouse employment is essential to family 
retention. Earlier this week, our Assistant Secretary for 
Manpower and Reserve Affairs signed out our policy implementing 
license reimbursement associated with permanent change of 
station for our spouses. The Air Force also remains committed 
to continued work in granting reciprocal licensing between 
States and adding increased employment flexibilities for our 
overseas spouses.
    Chairwoman Speier, Ranking Member Kelly, and distinguished 
members of the subcommittee, thank you again for the 
opportunity to appear before you and represent our incredible 
airmen and their families. Your airmen stand ready and fully 
understand their responsibilities to the joint force and the 
Nation.
    I am honored to be here alongside my colleagues, and I look 
forward to your questions. Thank you.
    [The prepared statement of General Kelly can be found in 
the Appendix on page 85.]
    Ms. Speier. Thank you, General Kelly.
    Now we will hear from General Rocco.

 STATEMENT OF LTGEN MICHAEL A. ROCCO, USMC, DEPUTY COMMANDANT 
  FOR MANPOWER AND RESERVE AFFAIRS, UNITED STATES MARINE CORPS

    General Rocco. Chairwoman Speier, Ranking Member Kelly, and 
distinguished members of the subcommittee, thank you for this 
opportunity to appear before you today to discuss the high-
quality Marines who make up the Corps.
    Your Marines are the foundation of the Marine Corps. They 
are smart, resilient, fit, disciplined, and able to overcome 
adversity. Recruiting and retaining these high-quality women 
and men is my number one priority.
    This year, the Corps will once again meet our recruiting 
mission, while at the same time exceeding all quality goals. 
Over 99 percent of our recruits are in the top education tier. 
This success would not be possible without adequate funding for 
advertising, and I thank you for your support in this effort.
    The Corps is also on pace to meet our retention goals this 
year. However, this is a continuous challenge because of the 
strong civilian job market. This is particularly true for 
cyber, intelligence, aviators, and many of the other critical 
high-tech occupations. To be good stewards of the money you 
provide us, we narrowly target our incentive pays and bonuses 
to these occupations. These bonuses are vital to our retention 
effort, and we appreciate your continued support for them.
    To improve recruiting and retention, we are in the midst of 
executing a new survey, an AI [artificial intelligence]-focused 
talent management line of effort. The goal of this effort is to 
utilize data to better determine and predict retention and 
performance behaviors. We believe this effort will bear fruit 
in the near future.
    The Marine Corps is an objective standards-based 
organization. We want the best Marines, female and male, and 
have refocused and refined our outreach to ensure we bring 
awareness of what it means to be a Marine to a broader 
audience. This has paid dividends. Five years ago, the Marine 
Corps was 7.3 percent female. We are now 8.8 percent. In fiscal 
year 2018, female accessions were over 10 percent of the 
population, and we are on that same trajectory this year. 
Additionally, females are represented in all previously 
restricted occupational fields. We need the best our Nation 
offers, and we are getting them.
    We appreciate the recent officer management authorities 
that you provided in the fiscal year 2019 NDAA. They seek to 
help modernize how we manage our Marines, with the goal of 
recruiting and retaining the highest quality talent.
    Increasingly, warfighting is becoming more sophisticated, 
technical, and complex. Cyber operations, information and 
electronic warfare, enhanced command and control, and 
intelligence are examples of critical skills we will need for 
the future fight.
    We are in the process of implementing lineal list 
flexibility based on merit for our officer corps for many 
promotion boards scheduled to occur in 2019. We believe that 
allowing the promotion board the discretion to reorder by merit 
will reward those high-quality officers who demonstrate 
sustained superior performance.
    The adage that we recruit the Marine but retain the family 
was never more true than today. To this end, we are focusing 
significant effort on helping our Marine spouses gain further 
education and obtain and maintain employment. We are finalizing 
our policy to provide up to $500 towards licensing and 
certification costs when a Marine spouse moves to another 
State.
    I am proud to represent the men and women of character, the 
few, the proud, who have taken up the challenge of being a 
Marine. By keeping unwavering focus on our Marines and the 
spouses and families who support them, we can continue to keep 
faith with the honor, courage, and commitment they have so 
freely given.
    I look forward to answering your questions. Thank you.
    [The prepared statement of General Rocco can be found in 
the Appendix on page 101.]
    Ms. Speier. Thank you, General Rocco.
    First of all, let me just say how impressed I am that you 
have recognized the importance of the family in addition to the 
service member. And I think that bodes well as we attempt to 
retain service members over the long term.
    Let me start with a lightning round of questions. I am 
going to ask each of the services the same questions, if you 
could just go down the line.
    The first question I have is, what is your waiting list for 
childcare, and how long is the wait? For each of you.
    General Seamands. Madam Chairman, it varies from location 
to location. In some cases, it is, as was cited earlier, over 
100 days, in places like Hawaii where the cost of living is a 
little higher and it is harder to attract people. In some 
cases, it is a very nominal wait list, depending on, I think, 
the workforce as well as the space.
    Ms. Speier. Well, that is actually not a great answer. So I 
would like for you to give me something that is more data-
driven. When we were at Fort Bragg and meeting with the 
spouses, that was a serious complaint, that they had to wait 
over a year in some cases. So I think we need granular data 
from each of you if you don't have it.
    Admiral Burke.
    Admiral Burke. Yes, ma'am. We have just over 8,000 
personnel on wait list right now. About 2,000 of them are in 
excess of 180 days, you know, just over 6 months there. And we 
continue to work on means to expand our capacity.
    Ms. Speier. Okay.
    General Kelly.
    General Kelly. Chairwoman, I will take the discussion, as 
you said, for more granular data to provide you, but what I 
will provide to you now is, as General Seamands said, it varies 
by bases. We have some bases with absolutely no waiting list, 
and we have some others who are upwards of 140 days.
    And those key areas would be Langley Air Force Base for 
sure, Joint Base Elmendorf-Richardson in Alaska as two that 
come to mind and which are also problematic in that there is 
not a lot of off-base childcare available at those locations as 
well.
    Ms. Speier. Okay.
    Yes?
    General Rocco. Chairwoman Speier, for the Marine Corps, we 
have 800 gaps, just over 800 gaps in childcare. Those are 
primarily located at Camp Pendleton, Hawaii, and Quantico. The 
wait list is about, on average, for those three bases, 6 
months. At any of the other bases, we don't have a problem.
    And the issue is not about space. It is about having 
qualified workers, the licensing, the high turnover. So we have 
an area like Camp Pendleton, southern California. They come on, 
they get licensed. It takes a little bit of time to get their 
license. They get their credentials. They are paid at the rate 
that we can pay them. And then, because they are credentialed 
in such a high-income area, they find some childcare off-base 
and get paid a lot more money.
    So, again, it is Camp Pendleton, Hawaii, and Quantico, and 
it is about 800 bed spaces.
    Thank you.
    Ms. Speier. All right. Thank you.
    I am going to give a shout-out to the Navy, which seems to 
have done a great job in some of these issue areas.
    Let's start with what is called the Career Intermission 
Program. At least, that is what the Navy calls it. Do each of 
you have one of those that gives your service members up to 3 
years to take a sabbatical?
    General Seamands. Madam Chairman, the Army does have a 
program. We have about 40 people in the program--officer and 
enlisted.
    Ms. Speier. And how long?
    General Seamands. It varies. In some cases, it is a year. 
It is up to the service member in terms of how long they want 
to go. Some, it is up to 3 years. In fact, one of the members 
went off to get their law degree and took the full 3 years. So 
it varies. Another member went off to get a scuba license to be 
a scuba instructor at some point.
    So it depends on how long they want. It could be up to 3 
years. I can get you more granularity.
    Ms. Speier. Is that automatic?
    General Seamands. It is. We have approved all the requests 
that have come in for the amount of time the soldiers have 
asked.
    Ms. Speier. All right.
    And, Admiral Burke, you have one, right?
    Admiral Burke. Yes, ma'am. We have had 217 sailors use it. 
We have had right around 125, 130 or so sailors come full 
circle, complete their intermission. About 90 of those came up 
on a subsequent reenlistment. They reenlisted. A lot of sailors 
tell us they would not have stayed in or been able to reenlist 
had they not had that opportunity to take that sabbatical and 
achieve the life-work balance objectives that they were after.
    Ms. Speier. General Kelly.
    General Kelly. Yes, ma'am, we have the same program. We 
have been in year four now of that program. We have over 200 
members who have entered in that program. Some have come back 
full circle, as Admiral Burke said.
    We interviewed six of those folks who came back this last 
year. All have decided, based on their CIP [Career Intermission 
Program] experience, to stay with and made a decision to stay 
and retain with the Air Force.
    Our program is about 56 percent female and about 44 percent 
male right now.
    Ms. Speier. All right.
    General Rocco.
    General Rocco. Yes, ma'am. We have 11 people in the 
program. We have had four that completed the program, two that 
came back into the Marine Corps and two that went to an 
interservice transfer.
    Ms. Speier. Okay.
    We have a high percentage of unintended pregnancies in the 
military. The Navy has a very good program in terms of 
providing information on contraception, particularly long-term 
contraception. I am curious if the other services have a 
similar program.
    General Seamands.
    General Seamands. Chairwoman, I will take that for the 
record. I am not sure.
    [The information referred to can be found in the Appendix 
on page 113.]
    Ms. Speier. Okay.
    Anything you would like to add on that, Admiral Burke?
    Admiral Burke. We start it during our life skills course--
that is the first thing that all our sailors go to right after 
boot camp--and kind of give them an education on everything to 
do with pregnancy and parenthood and impacts on careers and 
other things like that. And then we reinforce it continually 
throughout the career points.
    I think that is about it, ma'am.
    Ms. Speier. Okay.
    General Kelly.
    General Kelly. So, Madam Chairwoman, we have programs for 
basic education at basic training and initial skills training. 
I will get you specific on how those works.
    I can tell you that we also put in place a program that 
allowed pregnant airmen to make a decision, defer a decision 
until after they had a chance to talk to mentors, talk to 
others who had been in their--understood the resources that 
were available. We did that with an eye towards retention, and 
we have seen some improvements in retention. Where we used to 
force them to make the decision prior to the delivery of the 
child, now they have up to a year after that to make the 
decision.
    Ms. Speier. All right.
    General Rocco.
    General Rocco. The education starts at boot camp. It is 
something that they can elect to attend and get educated or get 
some training and some classes at boot camp.
    Ms. Speier. All right. I encourage you all to look at the 
Navy's program, because they have a lower--much lower rate of 
unintended pregnancies.
    Finally, do any of you provide in vitro services?
    General Seamands. Madam Chair, I believe we do, but I will 
take that for the record to confirm.
    [The information referred to can be found in the Appendix 
on page 113.]
    Ms. Speier. All right.
    Admiral Burke.
    Admiral Burke. I don't believe that we do.
    General Kelly. Yeah, I will take it for the record as well. 
We know of some members who have done it, but I will have to 
get back on the official stats, ma'am.
    General Rocco. And, ma'am, I would like to take that for 
the record.
    [The information referred to can be found in the Appendix 
on page 116.]
    Ms. Speier. All right. Great.
    With that, I will offer my ranking member his opportunity 
to ask questions.
    Mr. Kelly of Mississippi. Thank you, Chairwoman Speier.
    You know, I have a continued focus on our Gold Star 
families and how we best serve those survivors of our Gold 
Star--of our warriors who die in combat. And I think that is 
really important overall, because we fight best when we know 
that our family and loved ones are taken care of. So I would 
just ask that you continue to keep that in mind as we go 
forward.
    The Department of Defense has an enormous amount of data 
related to service members, their families, and their 
backgrounds. How are each of the services, real quickly, 
leveraging the information to better understand service 
members' motivations for staying in the military or leaving the 
military?
    And we will start with you, General.
    General Seamands. Ranking Member Kelly, thank you for the 
question.
    We do have a number of surveys and some data that is out 
there. I would say one of the top reasons people tend to leave 
the Active and the Reserve force is civilian opportunities on 
the outside. At least that is the survey indication we get. 
With the economy doing what it is, unemployment less than 4 
percent, there is a significant draw beyond.
    Having said that, sir, for officer retention and NCO [non-
commissioned officer] retention, we are at record highs in 
terms of people continuing to stay.
    Admiral Burke. Sir, we do a number of surveys as well. In 
addition to the traditional exit surveys, we have developed 
career milestone surveys for the sailors that are staying in. 
That is as important as finding out why people are leaving. And 
then we have also developed command climate-oriented but very 
targetable surveys that individual commands can tailor quickly 
and do frequently that we are calling pulse surveys. So there 
are a number of survey techniques.
    But, most recently, throughout our personnel system 
transformation and as part of our ongoing Sailor 2025 efforts, 
we have developed what we are calling fleet integration teams. 
And they go out and basically hold focus groups with sailors, 
spouses, family groups.
    An example, we went out--we took a 2-month period a year 
ago, went out across the fleet to understand the pain points 
associated with PCS moves. And we came up with 16 independent 
solutions, 2 of which we are about to put into motion here very 
shortly, to significantly ease the burdens of making PCS travel 
moves. And that is how we are, you know, getting the ideas that 
fuel the Sailor 2025 programs.
    Mr. Kelly of Mississippi. And, General, I am going to stop 
here. If you guys can provide that for the record, because I 
want to make sure--mining of the data and getting the right 
data is very, very important.
    [The information referred to can be found in the Appendix 
beginning on page 117.]
    Mr. Kelly of Mississippi. And, General Kelly, this question 
will be for you.
    And then I will get to you, General.
    Many of the personnel reforms we have discussed in the past 
have included plans to increase permeability between the Active 
and Reserve Components. What are your views on the need for 
this, and what has been done in the Air Force?
    And, specifically, I want to talk mostly Air Force and Army 
on this, the permeability between National Guard, Reserve, and 
Active Component.
    General Kelly. Sir, as you know, our modern use in the 
military for our Reserve Components, both our National Guard 
and Reserve, is as an operational force, no longer a strategic 
force. That means the permeability and our ability to manage as 
a total force has increased tremendously over time.
    We have several programs where we allow folks to move back 
and forth. We have a program called the Voluntary Limited 
Period of Active Duty, where the Reserve and Guard members 
serve on Active Duty for up to 3 years, and we have transition 
programs.
    Where I would tell you we fall short and we could use help 
is: The ability to move easily between requires appointment 
sometimes, especially on the officer side, requires 
reappointment as you move between components. In a modern force 
that uses the Air Reserve Components in an operational fashion, 
we would like to see us get to a place where we have an 
appointment authority that allows us to move much quicker and 
much easier between those components.
    Mr. Kelly of Mississippi. General Seamands.
    General Seamands. Representative Kelly, I would echo 
General Kelly's comments. I think the biggest improvement we 
could do is to make it much easier to transfer back. We talk a 
lot about continuum of service, and if we want to encourage 
people to go between the Active, Guard, and Reserve, we need to 
make it easier for them and their families.
    Mr. Kelly of Mississippi. General Rocco, this is for you. 
We have repeatedly heard that there are severe shortages on 
installation childcare. In many cases, military spouses are not 
able to even look for outside employment without meaningful 
access to childcare. What can the Marine Corps do to fix this?
    Because most military spouses, either husbands or wives, 
sacrifice a career for a job. So they do a job until their 
spouse retires, and then they are able to maintain their 
career. So what are we doing to fix this, General Rocco?
    General Rocco. Representative Kelly, thank you for that 
question. So I fully agree; lack of childcare impacts unit 
readiness, whether it is on the spouse or whether it is on the 
member who has to worry about their child in an appropriate 
child development center.
    So, to that point, I would say that we need to help 
streamline the licensing process. And as I answered Chairwoman 
Speier's question about child development, our shortage is not 
in actual spaces, it is not installations. It is the actual 
folks that watch the children and the licensing and the 
requirements. So, one, the licensing requirements, I think, is 
onerous.
    Number two, I think when you get to areas--and, again, 
Hawaii, southern California, and Quantico in northern Virginia, 
those areas have child development centers outside, obviously, 
in the civilian market. So we spend a lot of time getting these 
folks licensed and get their credentials up, and then they 
immediately find some higher paying jobs out in the civilian 
market. So we need the freedom to pay the market value or the 
market rate for these folks that are in these high-priced 
areas.
    Mr. Kelly of Mississippi. And I want the answers from you 
all if you all will do those in writing and submit those.
    [The information referred to was not available at the time 
of printing.]
    Mr. Kelly of Mississippi. And final question. And I want 
each of you to answer this, and do it pretty quickly and 
succinct because we have other people.
    For each of the services, what would the requested end-
strength increases in fiscal year 2020 be used for? And what 
increases to end strength do you anticipate needing in the next 
5 years?
    And I will start with you, General.
    General Seamands. Representative Kelly, thank you very 
much. We anticipate 2 years' measured growth of quality 
accessions to grow the force, primarily initially to fill the 
formations, make sure they are ready to go, and beyond that, to 
build structure.
    Mr. Kelly of Mississippi. Admiral.
    Admiral Burke. Yes, sir. Our end strength is all to do with 
force structure improvements. So 7,500 this year, and then it 
is a rough 5,000 increase per year out across the FYDP [Future 
Years Defense Program]. And that will take us from our present 
288 ships out to 314, which is in the fiscal year 2020 plan.
    Mr. Kelly of Mississippi. General.
    General Kelly. Our growth for this year is 4,400 for the 
military--3,700 Active Duty, 700 in the Reserve Component.
    It is a combination of continuing to improve our readiness 
and resiliency and increasing capacity and capability, to 
include, as I mentioned in the opening statement, adding 
maintainers ahead of time and operators ahead of time, 
anticipating the force structure growth for KC-46, F-35, and B-
21.
    Mr. Kelly of Mississippi. General.
    General Rocco. The Marine Corps growth is modest. It is 400 
over the FYDP--100 this year and 300 through the rest of the 
FYDP. And it has to do specifically with providing special 
operations critical skill enablers; so radiomen, logisticians.
    Mr. Kelly of Mississippi. And just one comment. You guys, 
Hawaii and the other places, we have joint bases at most of 
those things. And I can't believe that we have--you four guys 
get together, and let's jointly fix this childcare problem. It 
is not an Army problem, it is not a Navy problem, it is not a 
Marine Corps problem. Let's fix it together.
    And, with that, I yield back, Chairwoman.
    Ms. Speier. The gentleman yields back.
    Mrs. Luria, you are recognized for 5 minutes.
    Mrs. Luria. Well, thank you.
    And thank you for being here today.
    I am going to focus in on one service and one particular 
aspect of that service. I recently reviewed the fiscal year 
2020 Navy Active Duty Aviation Commander Command Screening 
Board results, and one statistic jumped out at me. The 
selection rate for women to commander command was 3.8 percent, 
or 7 out of 146 who were selected. Another way to say that is 
that 96.2 percent of all aviators selected for command in that 
year group were men. Additionally, only one woman of color was 
selected for command.
    And then when you look at the aviation major command 
results, they were even more stark. Only 1.8 percent of those 
selected were women, and zero were women of color.
    It also doesn't appear within those selection board 
results, from what I could tell, that any VFA [strike fighter] 
or VAQ [electronic attack] selectees--so fighter aircraft 
selectees--were women.
    Admiral Burke, I was wondering if you could comment why the 
aviation command selection rate for women was and continues to 
be so low.
    Admiral Burke. Yeah. Thank you, Representative Luria, for 
that question.
    I would start by saying that our enlisted population is----
    Mrs. Luria. I just would like to focus on women and 
officers. Thank you.
    Admiral Burke. Okay. Our enlisted population is more 
racially diverse than our Nation. Our officer population, in 
general, is not. And our aviation community, in particular, 
tends to be less diverse. But----
    Mrs. Luria. Is that at accession point, at commissioning, 
or are you talking about over time?
    Admiral Burke. And as we have recruited throughout the 
years, our diversity numbers have improved across the board in 
every community.
    But what you are seeing right now, especially at the 
command and major command selection boards, are the result of 
what we were recruiting 20 or 25 years ago, depending on which 
board you were talking about----
    Mrs. Luria. No, this was year group 2005, so 14 years ago. 
And the Combat Exclusion Act was lifted in 1994. So women have, 
for much longer than that, 10 years since then, had the 
opportunity to serve their careers since the beginning of their 
career in combatant roles, much like I did in surface warfare.
    So if we are 10 years past lifting the Combat Exclusion Act 
and then those women have had the same opportunities across the 
course of their career, how are we at the point that only 3.8 
percent--this is just one community, one year group--were 
selected for commander command and 1.8 percent for major 
command?
    Admiral Burke. Again, it is law of small numbers, where--
you know, we have to improve in this area. It is an absolutely 
critical area, because diversity obviously makes us stronger. 
It gives us better answers, better solutions.
    But here is where the issue is. You know, we look very hard 
at the promotion boards, we look very hard at what we are 
recruiting, bringing in the front door, and our efforts to do 
that, and I could talk to you about that. But the area we 
haven't done well enough on is what goes on in between those 
boards--and that is a retention factor--what is the environment 
that is driving women to leave so that they are not around to 
be able to promote to that----
    Mrs. Luria. Can I pause----
    Admiral Burke [continuing]. Command opportunity or be 
selected for it.
    Mrs. Luria. We are limited on time, so I would like to 
pause. And I would like the five of you to look across the 
table at each other.
    Admiral Burke. Same phenomenon, though. How many----
    Mrs. Luria. And----
    Admiral Burke. How many do we retain to be eligible, that 
is the point, ma'am.
    Mrs. Luria. So, you know, no one----
    Admiral Burke. We have to manage----
    Mrs. Luria [continuing]. In the role of command----
    Admiral Burke. We have to manage that talent.
    Mrs. Luria [continuing]. Maybe personnel command, has ever 
been a woman?
    So I would like to focus on that. So, in the 2004 to 2006 
year group, which is the year group in this one particular 
command screening board, there were 13.6 women assessed. So I 
agree with you that the problem is retention. And what 
percentage of officers do you plan to commission this year are 
women?
    Admiral Burke. Roughly 25 percent.
    Mrs. Luria. So 25 percent as women. So that is an 
improvement, but, you know, really, statistically, it seems to 
be quite a jump. Because if I look at the numbers between--I 
don't have the numbers here, but, basically, in 2000 it was 
14.7 percent, and in 2016 it was 18 percent. So in the course 
of 16 years, we only jumped approximately 3.3 percent.
    Admiral Burke. That is total inventory----
    Mrs. Luria. So we haven't----
    Admiral Burke. Yeah. Our accessions for the last 4 years 
have averaged at right around 25 percent women.
    Mrs. Luria. Okay. And is that reflected in all 
commissioning sources, the Naval Academy as well as ROTC 
[Reserve Officers' Training Corps] and OCS [Officer Candidate 
School]?
    Admiral Burke. It is.
    Mrs. Luria. Okay.
    So, you know, you mentioned a couple times that you have 
been given additional authorities through last year's NDAA to 
improve with retention. And are those things that you are 
specifically analyzing and focusing on with women and also 
women's input throughout their service across the career 
milestone gates as to how you can use those tools effectively?
    Admiral Burke. Absolutely. We have to create career paths 
that all, you know, candidates, women and men alike, can see 
themselves both growing professionally and personally. And they 
have to meet their life goals as well as their career goals. 
So, you know, the ability to have some life-work balance, the 
ability to start and raise a family if that is a goal, whether 
you are a man or a woman, that has to be part of the formula.
    And DOPMA, as it was before the fiscal year 2019 NDAA, 
really pressurized career paths, especially in our aviation 
community and especially in the two communities you singled out 
earlier, our TACAIR [tactical air] air communities. If you 
didn't go immediately into an aviation production job, you 
wouldn't meet the next milestone, you wouldn't meet the next 
statutory promotion opportunity.
    So the flexibilities you have given us, the opportunity to 
opt out of promotion, the opportunity to build up-and-stay 
career paths, those are very specific examples of where we are 
building those pieces in, to give places to do something 
different, achieve that life-work balance, and then come back 
and get back on the treadmill without penalty to that upward 
mobility, whether it is command or----
    Mrs. Luria. So have any of the----
    Ms. Speier. Excuse me. The gentlewoman's time has expired.
    Mrs. Luria. Thank you.
    Ms. Speier. Ms. Escobar is recognized for 5 minutes.
    Ms. Escobar. Thank you, Madam Chair.
    To all of our panelists, thank you so much for your 
service. Thank you for being here.
    General Seamands, it is good to see you again. I really 
appreciated our time together in the office yesterday and you 
answering some of my questions during our meeting.
    I wanted to follow up on something that we discussed 
regarding making sure that spouses have opportunities for 
employment in the communities where they are living in. And one 
of the things I shared with you was not just the licensing 
issue, but hopefully one of the things we look at changing is 
making sure that we standardize or we create, like, a uniform 
standard for folks so that they don't have to worry about State 
by State standards. So that is something definitely that we can 
work on.
    But I am very curious about how we can help military 
spouses who have professional careers who are less able to 
adapt to frequent moves. Are there strategies that you all have 
thought of and are putting into place for that group of 
spouses?
    General Seamands. Ma'am, thanks for the question.
    Yes, we have. One of the things we do, the Secretary and 
the Chief said we need to get away from conventional wisdom. In 
other words, you have to move on a certain rotational basis. So 
they have instructed us to tell an officer, if you are 
someplace, say, Fort Hood, your spouse is happy, your family is 
happy, and you are going off to a professional military 
education, we give you the opportunity to come back. Five years 
ago, that wouldn't have happened. And what that allows is 
stability for the family to stay in place, to build a little 
financial wealth if they live off-post, and provide stability 
for the spouse and the soldiers.
    The authority to reimburse them for their licensing, I 
think, is going to be a big, big deal.
    The Secretary is also approaching the overseas spouse, 
which is probably one of the most underemployed segments of our 
population, trying to make sure they have an opportunity for 
employment as their soldiers deploy overseas.
    Ms. Escobar. Thank you so much. I appreciate that.
    Could the other service leaders weigh in, as well, if there 
are other strategies that you have seen that might be workable 
or that are in the pipeline?
    Admiral Burke. On the overseas point, ma'am, I agree with 
everything that General Seamands said, but, specifically, I 
know all three service secretaries just signed a memorandum of 
agreement to go after that specific issue.
    And, you know, it involves starting simple. There are some 
internal barriers that we can remove, like the ability to run a 
home business in on-base housing, the ability to run a business 
out of your APO [Army Post Office] or FPO [Fleet Post Office] 
mailbox, things of that nature.
    And then the corporate world can help us as well. Similar 
to the programs that we run in CONUS [continental United 
States] with OSD's [Office of the Secretary of Defense's] help, 
the Fortune 500 companies that participate with preferential 
spouse hiring for military contractors, and then actually 
provide them portable careers that tend to move base to base. 
There are some opportunities in not all but many of the 
overseas locations, so expanding that portfolio.
    That is where we are starting, but room to maneuver from 
there.
    Mr. Stewart. Ma'am, can I jump in here as far as DOD and 
what we are doing in that area?
    We have the Military Spouses Employment Partnership, which 
works with 390 partner employers out there. About 134,000 have 
been hired since 2011. So we have some programs out there that 
are helping the services.
    General Rocco. Yes, ma'am. So, for the Marine Corps--and, 
granted, we are the smallest service, so our problems pale in 
comparison to the larger services, but we have--from assignment 
policy, which I run in my building, we have monitors to 
represent every occupational field. And a Marine never gets 
orders unless they have spoken to their monitor and said, okay, 
here is what we are doing and where we are doing it.
    And we don't just move Marines to move them. We move them 
based on their promotion, there is a school, or they have a 
command. And we always take into account the spousal 
employment. We just recently had a senior officer--and if we 
can't come to an agreement, a mutual agreement, then it comes 
up to my level to see how do we adjudicate. And we recently had 
a senior officer whose spouse is a certified medical 
professional in southern California. Very limited on where she 
can practice. So we were able to find a place where he can both 
be assignable and still continue to be a Marine and not harm 
his career and provide her the ability to transition.
    So, again, it is on a personal level that we deal with 
trying to find an agreement that works both for the Marine 
Corps and the couple.
    Ms. Escobar. Thank you so much.
    And I just want to jump in--I am running out of time. I 
just want to echo the concerns by my colleague who spoke prior 
to me on diversity. And my concern also is diversity not just 
for women but for all people of color in that upper echelon. It 
is hard to recruit diverse people if they think there is no 
place for them to move upward. So I just want to echo those 
concerns.
    Thank you, Madam Chair.
    Ms. Speier. The gentlewoman yields back.
    Mr. Cisneros is recognized for 5 minutes.
    Mr. Cisneros. Thank you, Madam Chair. Thank you all for 
being here.
    I am actually going to touch on diversity. You know, Mr. 
Stewart, in your written testimony, you mentioned the efforts 
the services are undertaking to promote diversity and 
inclusion. But you also mentioned in your written testimony 
that there is no particular program of--no goals to recruit to 
women or minorities.
    So how can we expect these demographics to be properly 
represented, particularly in our officer corps, which are 
greatly underrepresented between, you know, women and 
minorities? If we are not setting goals, how can we expect to 
recruit to these communities and increase their population?
    Mr. Stewart. Well, sir, we certainly don't want to go ahead 
and set quotas, but we definitely want to go ahead and make 
sure that we are reflecting the Nation as a whole.
    And so particularly in the area of diversity, I know you 
had a question--and, in fact, sent a letter, which we are going 
to get back to you on--as far as what we are doing in this 
area, particularly in the military leadership area at the 
senior ranks.
    We have the Military Leadership Diversity Commission, which 
basically was in the NDAA 2009, which we are basically going 
ahead and moving out on. I have an actual office that works 
those kinds of issues, and it is the Force Resiliency Shop and 
the Office of Diversity, Equity, and Inclusion. I have a Dr. 
Allison Greene-Sands, who actually is working on that very 
issue as we speak.
    Before I came over here, I made sure that we checked on the 
progress of your letter to the Secretary, and we are working 
that, and we are going to get an answer back to you, sir.
    Mr. Cisneros. Thank you. I appreciate that.
    General Kelly. Sir, if I can add in--this is General Kelly. 
If I could add in, regarding that discussion on goals, right, 
so I am with Mr. Stewart; we don't have quotas. But we have set 
goals for applicant pool goals for the United States Air Force 
Academy, for our ROTC programs.
    And I will tell you that this year, so our applicant pool 
goal--so the applicant pool goal for female applicants at the 
academy was 30 percent. We achieved that for the first time 
this year for our class of 2022. We are at 28 percent for our 
ROTC program.
    The other thing we have done is internal, is, once you get 
them in the door, how do you retain them and move them up the 
chain? For all of our key slates, key slates for jobs such as 
general officer aides, general officer executives, key front 
office jobs, every slate that we produce in those environments 
today have to have both gender and broader diversity candidates 
on each slate, and that has improved those numbers from about 
18 to 22 percent across the board.
    Mr. Cisneros. Do we have programs in the other services?
    Admiral Burke. Sir, yes, if I could add to that. We have 
similar as what Air Force said. We set targets for gender 
recruiting, for gender and other areas.
    But more importantly, what we do is focus our efforts to 
make sure that we are in the right places, that we are 
accessible to folks, that we don't intentionally alienate 
groups when we are sending the message of what the Navy can do 
for individuals or what they can do for us and that we don't 
overlook any source of talent.
    And then, once folks are in, in terms of retention, it 
really is the key. It is management of the small numbers, and 
we put a renewed focus on managing at the very junior level so 
that you have those folks available to promote up to senior 
levels.
    We have got a number of focus groups that continue to work. 
We have set a Navy-wide high-leverage outcome goal of 
eliminating unconscious bias.
    We have looked hard at our promotion systems, you know, who 
is eligible and who gets promoted. We think those are working 
right. But what is happening is who leaves in between those 
promotion boards, those command screening opportunities, and 
things like that; is our culture driving them out?
    And there are human unconscious biases that drive that, and 
this high-leverage outcome is getting at that, engineering 
processes that overcome those unconscious biases.
    And then we have an Inclusion and Diversity Impact Plan 
that goes with our culture of excellence that is going to 
reinforce this all down to the deckplates, and I am happy to 
talk with you more about that when we have more time, sir.
    General Seamands. All right. It really starts at accession, 
sir. So far, on the enlisted side, what we are doing is 
attacking 22 cities that we have not given as much attention to 
in the past, which will bring a lot more diversity to the 
force. On the officer side, sir, it starts as we bring people 
to West Point, ROTC, and OCS.
    This week, sir, the United States Military Academy will 
graduate 34 African American female cadets to become second 
lieutenants, highest number ever. It will be the highest number 
of female Hispanic officers being commissioned, and we will 
commission the 5,000th female to graduate from West Point since 
they started accepting females.
    So it starts at that point, and it requires care and 
nurturing as you go up to make sure they get the right 
assignments so you have a broad bench to pick up for flag 
officers later on.
    General Rocco. And, sir, in the Marine Corps, as I stated 
before, in 2018, we accessed over 10 percent female, and this 
year we are on the same trajectory. On every promotion board, 
there is a representative female, and there is also an officer 
of color, a diverse officer. We also--by MOS [military 
occupational specialty] so we don't--we don't help one 
particular MOS over another. And we also included unconscious 
bias training in our--all of our schools.
    Mr. Cisneros. My time has expired. Thank you very much.
    Ms. Speier. The gentleman yields back.
    Congresswoman Davis is recognized for 5 minutes.
    Mrs. Davis. Thank you. Thank you to all of you for your 
dedicated service.
    I wanted to just pick up on the what we call childcare 
issue and just thinking about what I would call child 
development educators. They don't really just watch kids. They 
educate them. And whether that--and, sir, turning to you, 
Lieutenant General Rocco, at Pendleton for, as an example, 
where you have higher pay for a number of the educators in the 
area, do you know generally what that gap is? Because you 
talked about the needs--the freedom, really, to pay higher 
salaries there. Any sense of that, what that gap is?
    General Rocco. Ma'am, I don't know what the gap is, but I 
can certainly come back to you on that and just--and I fully 
agree with you in my mischaracterization of it. I have two 
grandchildren who are on--who are being educated and being--are 
in the child development system. So I have got personal reasons 
to make sure this is done right. But we will certainly get back 
to you on the numbers as far as what that gap is.
    Mrs. Davis. Okay. Is it an authority that they are looking 
for to do that? Is that across the board that people would have 
to have authority or just in particular areas? Do we need to 
write something specific?
    General Rocco. I think it is a matter of--because of how 
they are paid--they are paid a certain salary. And that salary, 
whether you are in Camp Pendleton, Twentynine Palms, or 
wherever you may be, because it is government work, it is one 
salary. And, of course, you go to the high-income areas--where 
it may work in, say, the Midwest, it doesn't necessarily work 
in high-income areas like Hawaii or southern California and 
certainly northern Virginia where they can get a much larger 
salary to work out in the civilian market.
    Mrs. Davis. Certainly, right. I understand that. Because I 
think what happens--and I may be not necessarily fully correct 
about this--but at Pendleton and some of the other bases in San 
Diego that I am familiar with, often we do have spouses who 
develop their own businesses in their home basically. And so 
they are kind of paid outside of that system.
    General Rocco. Very well--and I am sure that is exactly--
but just from a base--and, again, from Quantico, where I am 
stationed at, it is a very good system. They are very flexible 
in children and who they take and when they take and their 
hours.
    But it comes down to they can work in Arlington or they can 
move up further north closer to the Capital and get paid more 
money than we can pay them down at Quantico.
    Mrs. Davis. Okay. Thank you.
    Mr. Stewart. Congresswoman, can I help them out a little 
bit on that?
    Mrs. Davis. Sure.
    Mr. Stewart. Within the military community and family 
policy area within the Department of Defense, we are addressing 
salary, benefits, and other initiatives with Joint Service 
Compensation Working Group that we are currently working on 
right now.
    This is an area that has been identified, and we basically 
have the same problem with all of the services. And so this is 
at the OSD level that we are trying to help them out with that, 
ma'am.
    Mrs. Davis. All right. Thank you. And I know the standards 
are great. People are very pleased with that. But perhaps there 
are some alternatives to helping a number of women or men, for 
that matter, establishing businesses that might comply and be 
able to create some of those within the community. So that 
would be good to take a look at.
    I also wanted to just for a minute talk a little bit about 
bonuses for retention and sort of understanding whether they 
are necessarily competing with equivalent civilian salaries or 
whether there are some incentives that would be more salient, 
more critical to families that would be desirable and perhaps--
you know, you are doing some of those--obviously the Navy is 
doing some--about career intermissions. I was really happy to 
hear you talk about that, because, you know, we worked hard on 
that trying to make people understand how important that was 
for quality of life.
    I spoke to so many women who left the service as a result 
of that. So I am glad to know that you are working on it.
    But what about that? I mean, are we trying to equate higher 
salaries and maybe not looking at other kind of bonuses, other 
kind of benefits that would be helpful?
    General Kelly. Congresswoman, I will start. So, when we 
look at our bonus structures, very rarely are we trying to 
compete 100 percent with the civilian salaries. It is really 
difficult. And I will give you the aviation example we brought 
up before. We can't compete with those folks. What we do with 
those monetary bonuses is just sort of offset the discussion 
and help tilt the equation in our favor.
    What we really focus on is those other incentives like you 
just talked--there are other quality-of-life things we can do. 
We have almost done like a sort of USAA [United Services 
Automobile Association] model, if you will, where we try to, 
person by person, find out, what is your incentive? What is 
your discussion? Is it staying longer at the place you are at? 
Is it PCSing to a certain base? Is it, you know, deciding that 
you want to stay through your child's high school years? We try 
to almost tailor person by person to work on the retention 
piece, with the monetary piece just offsetting. But we do not 
try to compete with the civil sector on that.
    Mrs. Davis. Thank you very much. I appreciate that.
    And I was going to ask about the Blended Retirement Systems 
and the fact that we see a difference, really, in the higher or 
lower rates of Active Duty and Reserves, and perhaps for 
another time you would be able to kind of address that issue.
    Thank you very much.
    Ms. Speier. The gentlewoman yields back.
    Maybe you can provide that information to us for the 
record.
    [The information referred to can be found in the Appendix 
beginning on page 119.]
    Ms. Speier. Next, Ms. Haaland is recognized for 5 minutes.
    Mr. Kelly of Mississippi. I am sorry. We are not----
    Ms. Speier. Oh, well, we were doing it based on who came 
in, but in fairness, yes, Mr. Bergman is recognized for 5 
minutes.
    I apologize, Ms. Haaland.
    Mr. Bergman. You want me to yield the 5 to her and then get 
it back?
    Ms. Speier. No, you are fine.
    Mr. Bergman. All right. I will take 6 back, give 5. 
Government math.
    Okay. Thanks for being here, everybody. And thanks, Madam 
Chairwoman, for the chance to ask a couple of questions.
    Number one, each of the services, you have got first 
termers. What is the percentage of your first termers that you 
hope to retain for a second enlistment and then therefore 
potentially towards, you know, a career of 20? Any rough 
numbers for each service?
    I think in the Marine Corps, it used to be somewhere around 
25 percent or--somewhere between 25 to 30 percent was our first 
term?
    General Seamands. For the Army--all of the services have a 
pyramid. For the Army, it is higher than that. It is probably 
about 50 or 60 percent we would like to stay. Our retention 
rate is about 80 percent of those people who are fully 
qualified are staying, between----
    Mr. Bergman. So really when someone comes in, you hope that 
you will get a minimum of 50 to 60 percent to stay for 20?
    General Seamands. Not for 20, sir. About 20 percent will 
stay all the way to 20. But----
    Mr. Bergman. Okay.
    General Seamands [continuing]. As they go up.
    Mr. Bergman. So you build that career force, if you will, 
out of 20 percent of those who come in the door?
    General Seamands. Roughly, yes, sir.
    Mr. Bergman. Okay. Fair enough.
    Navy?
    Admiral Burke. Yeah, first term retention, so our contracts 
tend to run a little longer. So that's a 6-year contract to the 
second 6-year contract.
    When we are at a stable size, we need roughly around 55 
percent retention to that second contract. Right now, we need 
much higher than that because we are trying to balance 
accessions versus retention, because we don't want a really 
junior force manning that 355-ship Navy. We want a mix of 
experienced people. So we need in the, you know, 70 to 80 
percent region, and we are in that ballpark right now.
    Mr. Bergman. Okay.
    Air Force?
    General Kelly. Yes, sir. So, similar to the Navy, we use 6-
year enlistments as our predominant method. And when they come 
in, we are looking for somewhere between 60 and 75 percent of 
those 6-year enlistments to take a second enlistment.
    The numbers that we are looking to get to 20 years, similar 
to the Army, we are looking for about 23 to 25 percent to get 
to 20 years on our enlisted force as they go forward.
    And what I would tell you is, right now, our enlisted, if I 
look across all of our specialties as a whole, 90 percent of 
our enlisted specialties are retaining at or above the levels 
that they were in the previous year. So we are in pretty good 
shape right now.
    Mr. Bergman. Okay. Thank you.
    We all know--you hear the numbers--roughly 70 percent of 
the age-eligible men and women who we would try to enlist 
can't. Largely obesity is a big--you know, big problem.
    What, if anything, are you as the services doing to help 
those who may walk in your recruiting center overweight to get 
them so they can successfully complete boot camp?
    Admiral Burke. I will take this one to start, if you guys 
don't mind.
    We took a holistic look at all the medical accession 
standards. And those that the Department of the Navy had 
flexibility in, we worked with our Bureau of Medicine to take a 
fresh look at through the lens of modern medicine, things like 
ADHD [attention deficit hyperactivity disorder], hearing loss 
that could be corrected with hearing aids, eczema, stuff like 
that that we used to just immediately turn----
    Mr. Bergman. I guess I really want to focus on the obesity.
    Admiral Burke. The same thing with the weight issue. So we 
started putting people in delay--in physical training [PT] 
programs.
    Mr. Bergman. Like a delayed entry program, get them into 
shape?
    Admiral Burke. And then we started running the entrance 
exam at the beginning of boot camp.
    Mr. Bergman. Okay.
    General Rocco. And, sir. I think you know in the Marine 
Corps, we have the DEP, the delayed entry program, and we just 
get them on the treadmill and PT them.
    Mr. Bergman. Really, we do that?
    But it is okay. I mean, we--because each service has a 
different mission, and we need different, you know, levels of 
capability in our service members to complete--to complete our 
mission. But we know it is a national problem of obesity. And I 
know that you all can set the standards for the entire Nation 
for what--for especially our 18- to 24-year-olds.
    I would like to, for the record, take it--you don't have to 
answer me now. But the cost per individual from the day they 
walk in the door, or let's say that you allocate--if you 
picture--or your advertising dollars in your recruiting, the 
cost per individual to get them through boot camp. And just if 
you could, you know, take that for the record, I would 
appreciate it to see what that cost is.
    And thanks, Madam Chairwoman, and I yield back.
    [The information referred to can be found in the Appendix 
on page 121.]
    Ms. Speier. The gentleman yields back.
    Along the same lines, I think it would be helpful to the 
committee if each of the services could provide us with the 
reasons why those who attempt to enlist are declined the 
opportunity. It would be helpful for us over the long run.
    [The information referred to can be found in the Appendix 
beginning on page 113.]
    Ms. Speier. Now, Ms. Haaland is recognized for 5 minutes.
    Ms. Haaland. Thank you, Madam Chair.
    And thank you very much, gentlemen, for being with us this 
afternoon. I appreciate your service to our country. And thank 
you so much.
    I hope I am not repeating any questions, because I came in 
a little late. But we will try.
    Maybe this question would be best answered by Lieutenant 
General Kelly.
    How do you envision we can better use our Air Guard to 
solve our current pilot shortage?
    General Kelly. Thank you for that question.
    As I mentioned earlier, but I will go again on this, is we 
use our Reserve Components as operational reserves. So when we 
deploy our forces, it is quite often almost impossible for you 
to tell whether it is an Active Duty member, a Reserve member, 
or a Guard member. They are completely interchangeable for us, 
and we utilize them in that fashion.
    We find, though, in this pilot retention problem where we 
are at, that we have shortages across all three components. And 
so, while we are able to sometimes, you know, substitute Active 
Duty shortages with the Guard, we find similar shortages in our 
full-time--particularly full-time pilots in the Guard and 
Reserve. And so the problem for us goes across all three 
components in that case.
    Ms. Haaland. Anyone else like to take that question?
    Admiral Burke. Yes, ma'am. We are able to do similar with 
everything--except for our TACAIR that deploys on aircraft 
carriers, just because of the operating model and the 
deployment cycles, the training--train as a unit, deploy as a 
unit, and remain ready as a unit to surge deploy.
    But with other types of aircraft that deploy as 
detachments, we actively integrate our Reserve Component. So 
helos, patrol aircraft, transports, so on and so on and so 
forth.
    Ms. Haaland. Thank you. Thank you.
    I was just thinking--I was recently--I gave the 
commencement speech at the Southwestern Indian Polytechnic 
Institute. It is kind of a--it is a Tribal college, but it is a 
community college, in Albuquerque. And the JROTC [Junior 
Reserve Officers' Training Corps] who did the color guard, they 
were all Native girls, an all Native girl color guard, which 
you don't see often.
    I am just wondering, is--how--like what is the percentage 
of JROTC students who eventually enlist, and is like reaching 
high school students a viable way of ensuring that diversity 
and the female population has an equal chance at a career in 
the military?
    Mr. Stewart. From an OSD perspective, I will take that for 
the record, to go ahead and get back to you on those numbers. I 
will let the services talk about specifically their Junior 
ROTCs. But, overall, we will try to get back to you with that, 
ma'am.
    [The information referred to can be found in the Appendix 
on page 121.]
    Ms. Haaland. Okay.
    General Seamands. Within the Army, ma'am, we own about half 
of the Department of Defense Junior ROTC programs. Great 
citizenship programs. Even if they don't come into uniform, the 
leadership they learn, the skills, the values, the discipline, 
I think pay off in life later on.
    A number of them do come in; not only to the Army, they 
come into other services as well. But we are very proud of our 
Junior ROTC programs. We think they make a big--great 
contribution to our Nation.
    Admiral Burke. I would echo General Seamands; same for the 
Navy.
    Ms. Haaland. Okay.
    General Kelly. I would echo as well, ma'am. But then I 
would also add that there are other organizations for us 
besides the Junior ROTC where we focus to try and increase our 
female accessions in effect. We look to areas like BEYA, the 
Black Engineer of the Year, societies. We have partnerships 
with the robotics, with ELeague, with GoPro, a bunch of the 
other folks, where we can do some partnerships to try and make 
sure that we increase the interest and the opportunity for them 
to know about the Air Force.
    General Rocco. Ma'am, I think it is just a wonderful 
program. And we can get back to you with the numbers, at least 
for the Marine Corps, that we get. But it is programs like that 
that encourage folks to serve.
    Ms. Haaland. Because really when I think about the 
opportunities in our Native American communities, sometimes the 
unemployment rate is as high as 50 or 60 percent, and it just 
seems that those are opportunities that we could increase in 
those areas.
    And sort of along those lines, Lieutenant General Seamands, 
with 79 percent of new recruits having a relative who served, 
what efforts are being made to appeal to new recruits outside 
of that demographic?
    General Seamands. Thank you for the question. A lot of our 
recruits come from kind of a southern smile, from the DC area 
all the way down to Florida, Georgia, into Texas. So we are 
expanding beyond that range. We have identified 22 cities, big 
cities, Pittsburgh, Seattle, other places that we may have 
neglected a little bit in the past, where we think we can reach 
into some diversity across our Nation.
    We really want our Army to look like our Nation, and we 
can't do that unless we tap into all the right places to bring 
in applicants to become soldiers.
    Ms. Haaland. Thank you so much.
    And, Madam Chair, I will yield back.
    Ms. Speier. The gentlelady yields back.
    There has been a request for a second round. So we are 
going to engage in that.
    Let me just say at the outset to all of you and to Mr. 
Stewart that one of the areas that is oftentimes overlooked is 
girls' high schools in terms of recruitment. And I think that 
would be a good area for you to pursue as well.
    Mr. Kelly.
    Mr. Kelly of Mississippi. And I am not going to take long. 
But I have a unique--we are having our first Mississippi 
National Guard armor officer who is a female was commissioned 
last weekend. And I got to meet her; very great young lady.
    But we have a policy--it is either DOD or Department of the 
Army--which requires that she be--have another female officer 
with her in order to serve, okay?
    And so we have got to be careful with policies that 
segregate, and we have got to integrate, okay? And what that 
means is, is she doesn't need to be in HHC [Headquarters and 
Headquarters Company]. What she needs is to be commanding a 
tank platoon with whoever is in that tank platoon.
    And so we have to be real careful that we--because that is 
a leadership deal. We have got to make sure we keep folks in 
line; that we treat them right. But we can't segregate for the 
purpose of integrating, because it does not work. We have got 
to make sure we give them the opportunities to perform as a 
tank platoon leader, whether they are female or male or 
anything else.
    So I just ask that we look at that, to be careful not to 
try to help and hurt by trying to help, okay?
    And, with that, I yield back, Chairwoman.
    Ms. Speier. The gentleman yields back.
    Mrs. Luria, you are recognized for 5 minutes.
    Mrs. Luria. Well, thank you. I would like to continue along 
the line of questioning from earlier.
    So, across the country, women make up about 56 percent of 
all college attendees. And since one of the primary factors in 
receiving a commission is a degree, I was curious as to why 
currently in the Navy--and I would like to hear from the other 
services, the previous question I asked, your current 
accessions and people that you will be commissioning this year, 
why is that percentage only half of the current population?
    And, General Kelly, you might have alluded to it some as 
well when you mentioned the Air Force Academy application pool, 
you are getting about 30 percent of applicants.
    So is it a question of the number of people applying and 
presenting themselves to, you know, be members of the military 
and be commissioned as officers, or is it somewhat goals that 
are being set are capped by the academies and other 
commissioning sources?
    General Kelly. Congresswoman, thanks again for the followup 
question. I will just clarify where I was before.
    Our program has been focused on increasing our applicant 
pool goal. So we have had to go out and do targeted efforts, do 
targeted engagements to increase that applicant pool goal. So 
our initial step was to get the applicant pool goal above 30 
percent at the academy and ROTC. Once we get--our goal was 
continue to move that north, right? We would like to get that 
up to be representative of the population.
    Mrs. Luria. So, with 30 percent applicants, assuming that 
is the incoming class, what percentage acceptancewise are 
actually going to be attending the Air Force Academy this 
summer?
    General Kelly. So we believe the class of 2022 will be 
close to 30 percent applicant pool goal that we reached.
    Mrs. Luria. You said applicant pool goal. I mean, we are at 
the point now we have offered appointments. What is the actual 
class composition?
    General Kelly. We believe it will be 30 percent, which will 
be up from--in the past, it has been about 25 percent, so we 
have moved it up about 5 percent.
    Mrs. Luria. Okay.
    And, Admiral Burke, for the Naval Academy?
    Admiral Burke. I would have to get back to you on the 
applicants versus selectees. I can tell you what we graduate, 
and that is what we----
    Mrs. Luria. So you don't know the statistics for the 
incoming class?
    Admiral Burke. I don't know how many applicants we seek 
versus how many we select.
    Mrs. Luria. Right. I would like that information as a 
followup.
    Admiral Burke. I will get that for you.
    [The information referred to was not available at the time 
of printing.]
    Mrs. Luria. And, General Seamands, for West Point?
    General Seamands. Yes, ma'am, I will confirm the exact 
numbers, but it is between 23 and 25 percent.
    Mrs. Luria. Okay. Thank you.
    And I would like to go back to Admiral Burke because, you 
know, we talk about both accession, recruitment, but we also 
have talked a lot about retention and how those numbers have 
dwindled off significantly. The example I gave about one 
community screening board was at approximately the 15-year 
commission service date.
    But within the Navy overall, female officer retention is 
the lowest of all the services, yet male officer retention is 
higher than other services.
    Can you comment on that discrepancy, you know, with any of 
the programs we had the opportunity to speak about in my office 
yesterday? How are you targeting those specific programs to fix 
these problems?
    And just before you answer, I would like to comment as well 
on the fact that, you know, when we talked about issues here, 
about what are your policies and training on birth control, and 
no one was familiar with that at the table. IVF [in vitro 
fertilization] services, none of you know whether Active Duty 
military have access to IVF services? That is somewhat 
surprising because that is important to a female service member 
who has fertility issues.
    And so these are just things that I am just trying to 
elevate. These are important to female sailors. And I was a 
female commanding officer of female sailors, and these are 
things that came up over the course of my career when these 
women worked for me.
    So, to go back to my question, Admiral Burke, can you talk 
a little bit about the programs that we mentioned yesterday and 
how you plan to target those to the demographic, to increase, 
you know, both diversity and retention of women over the course 
of their career?
    Admiral Burke. Absolutely. Thank you.
    Again, we have to do better here and make it so that folks 
can see a path not only for the professional career but for the 
personal goals as well.
    So we talked about the Career Intermission Program. But the 
parental leave latitude that was given to us in fiscal year 
2017 NDAA, I believe it was, and how we are implementing that 
has been a tool.
    We talked about childcare. We have expanded the hours and 
the capacity----
    Mrs. Luria. Can we stop on that? Because we just--there was 
study in The Virginian-Pilot, our local paper--obviously 
Norfolk Naval Station, the largest naval station in the 
country--that for overnight childcare, because many Navy 
service members have to stand duty overnight, and for single 
parents or dual-military parents, where one parent is deployed, 
there are only 24 spots for overnight childcare within the 
Hampton Roads region. That seems like an unacceptable amount to 
meet the demand. And I will further carry--I know this--and I 
will follow up with Langley Air Force Base, which is also in my 
district, about the need there.
    But for the Navy, you said that you are approximately 8,000 
or so spots short for childcare. I just looked at a U.S. Naval 
Institute report that the most current reporting, as of last 
week, shows that we are at 9,298 spots short within the Navy. 
So you need to increase your childcare capacity by 24 percent. 
And that is only in places where there are childcare facilities 
that have waiting lists.
    In my district, for example, Wallops Island is a remote 
area that has a Navy facility and has no childcare facility at 
all. So every time I have a townhall on the Eastern Shore of 
Virginia--myself and Senator Warner were there a few weeks 
ago--we have service members show up and talk about the fact 
that there is absolutely no childcare available, not only on 
base, but not even within the adjacent community.
    So I am just, you know, putting this out there as far as, 
you know, identifying the scope of the need.
    Admiral Burke. Absolutely. And to your point, you know, we 
have 35,000-children capacity with our intrinsic, you know, 
Navy government sources. We are outsourcing the rest of them, 
some to certified home providers, some to, you know, community 
commercial providers.
    One thing that we have launched here, Commander of Navy 
Installations Command, for example--Mary Jackson, is leading 
this effort--is requests for information about the feasibility 
of partnering with community commercial businesses to increase 
both the facilities as well as the capacity of childcare. And 
that would be a good opportunity for a location like Wallops 
Island.
    Ms. Speier. All right. The time has expired.
    Let me just underscore what you have heard from virtually 
everyone on this panel and something I heard everywhere I went. 
It didn't matter if it was the Army, the Air Force, the 
Marines--it didn't matter. Childcare is a huge problem on every 
one of our bases. And I think what needs to happen is a 
comprehensive look at what the need is and then immediate steps 
taken to either start building the facilities or finding the 
opportunities for these families to get quality childcare.
    I will also point out that many of the childcare 
opportunities that service families have to access off base are 
more expensive, and they are only being subsidized to what the 
rate is on base, so they are doubly impacted by it.
    Mrs. Davis, do you have any further questions?
    Mrs. Davis. Thank you, Madam Chair.
    I am just going to return very quickly. I echo that as 
well, obviously. I think that we need to think out of the box 
about this. There are some options that I don't think have been 
tried. So perhaps we can take a look at those as well and 
really developing the personnel in the communities.
    I wanted to talk just a minute about the Blended Retirement 
System because we know that there is a difference. The Marine 
Corps, for example, had the highest rates among Active Duty and 
Reserves in opting in whereas the Army had the lowest rates of 
adoption.
    So just trying to understand, perhaps from Mr. Stewart and 
from the services, if detailed analyses have been performed as 
to the origin of those differences and how those findings can 
inform the retention of talent among our All-Volunteer Force.
    Mr. Stewart. So, as far as the data, ma'am, we are not 
there yet. Again, the Blended Retirement System, as you know, 
is new. But we are tracking it, and we will provide you data 
associated with it on the take rates, the reasons why, all of 
the details associated with that because we know Congress is 
very, very concerned about the Blended Retirement System.
    Mrs. Davis. Great. Anybody else want to comment?
    General Seamands. Ma'am, for the Army--on the Reserve 
Component--I don't have any survey data other than me going out 
and asking people why they did or didn't participate. On the 
Reserve side, what they told me is if they have a civilian job, 
their 401(k) is capped. In other words, they have a good 
program in the civilian world. This would not necessarily 
enhance them by going to blended retirement.
    On the Active side, two things we got back in terms of 
feedback. One was a lot of the soldiers intend to stay until 20 
years, so why would they go to 40 when they intended to stay 
for 50?
    The second issue was for those people who intended to get 
out, you can't access your blended retirement until 59-and-a-
half without a penalty. So they were investing themselves for 
things, knowing they would get out at year 10 and want to buy a 
house, start a business and things like that, as opposed to 
having a deferred compensation package. That was the feedback 
we got.
    Admiral Burke. Yeah, for the Navy, we had a very robust, 
you know, financial education campaign around this, as did all 
of the services. But with a largely career-oriented force, 
folks looked at the numbers and realized if you hadn't been 
contributing really from day one, depending on your assumptions 
about market values and things like that, you may not be able 
to break even if you made the switch.
    So we had a relatively low number of Active Component folks 
that were in the decision window switch over. But that was the 
driving reason; it was running the numbers.
    Mrs. Davis. Okay.
    General Kelly. I would echo what my colleagues have already 
said, ma'am. And so our numbers for the Active Force were about 
29 percent and far less on the Reserve Components. But the 
Active Force, I would say a lot more career-minded folks who 
are thinking about 20 years as a career. You heard us talk 
about our retention goals being very high for an Air Force that 
is technically oriented.
    So we weren't overly surprised by the opt-in rates for 
those folks. But the discussion of 50 percent versus 40 percent 
if you were career-minded definitely came into play for those 
folks.
    General Rocco. And, ma'am, I think for the Marine Corps, 
because our numbers were so high, we are also opposite of our 
other services, where we have the largest turnover, close to 70 
percent that we don't retain after the first enlistment. So 
they looked at this as an opportunity to get vested, even for a 
few years, that they can benefit from.
    Mrs. Davis. Right. And would you just say overall that this 
was a good move, to create the opportunity?
    Mr. Stewart. Yes, ma'am, if I can. Just my impression is 
that, in the past, whenever an individual spent time with the 
services, it was ``thank you very much for your service,'' and 
as they headed out the door, they had nothing to show for it.
    Mrs. Davis. Okay.
    Mr. Stewart. So this package that we have----
    Mrs. Davis. Okay. Great. Thank you.
    And just a question about the higher retention rates, and, 
you know, we have talked about, you know, women in the services 
and whether or not, in fact, culture has something to do with 
whether or not they stay in and what their experiences have 
been that have perhaps driven them out prematurely.
    So I want--you know, I don't know if you want to comment on 
that. The other thing I would just say is it is my 
understanding, when it comes to IVF, that many of our wounded 
warriors have had the ability to get those services. And so I 
was a little surprised as well that, in fact, people in the 
Active Duty are not able to access those services. So that 
would be good to follow up on.
    Thank you very much. I believe my time is running out.
    Culture.
    Ms. Speier. Twenty-one seconds on culture.
    Mrs. Davis. Is that----
    Admiral Burke. I mentioned those high-leverage outcomes, 
and that is exactly what our focus groups are getting at. It 
is, what is it about the culture that they are either seeing or 
choosing to not see that is driving people's decisions?
    Mr. Stewart. And if I may, ma'am, just for the record, the 
Coast Guard actually did a gender diversity report that we are 
looking at in OSD. They just recently did it, and we are taking 
a look at that.
    Mrs. Davis. Okay. Thank you. Thank you all very much.
    Ms. Speier. Okay. Mrs. Davis yields back.
    All right. Gentlemen, you have, I think, gotten a good 
sense of where our issues are.
    Let me end with two more points.
    In visiting many of these bases, I found that the spouses 
were either not aware that their professional license transfer 
was available to them, and of the ones that did, they said they 
couldn't get anyone at wherever they are supposed to contact 
them in order to get it processed. So we have an issue there.
    I also think it should be increased up to $1,000. And we 
will attempt to address that in the NDAA.
    But the other thing that they said--and I think it is a 
thorny issue, and I would love to have you think about it and 
then provide us a written response to--is that when many of 
these spouses go out to get employment, they are discriminated 
against because they can detect from their resume that they are 
a military family member. And so there is a reluctance to hire 
them.
    So it is a huge problem. I don't know exactly what the 
answer is, but I would certainly appreciate your comments on 
that.
    [The information referred to can be found in the Appendix 
beginning on page 114.]
    Ms. Speier. And then, finally, housing. The conditions of 
lead, mold, asbestos that hasn't been addressed is a serious 
problem.
    And then the second one is the lack of responsiveness by 
the housing management firms that we hire to accommodate, you 
know, a clogged sink, a toilet that doesn't work, and they are 
totally nonresponsive.
    And we have got to get that fixed because we are paying 
good money for them to provide those services, and the extent 
to which they are not is very problematic. And one of the 
things that we are considering is whether we need an ombudsman 
at the--each of the bases to be able to provide that kind of 
service to the families and, you know, shake the management 
firm. So those are my questions, and I want you to give some 
thought to it and get back to us.
    Okay. Mr. Kelly--okay.
    With that, we stand adjourned. Thank you.
    [Whereupon, at 4:05 p.m., the subcommittee was adjourned.]

     
=======================================================================

                            A P P E N D I X

                              May 16, 2019
      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 16, 2019

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 16, 2019

=======================================================================

      

             RESPONSES TO QUESTIONS SUBMITTED BY MS. SPEIER

    Mr. Stewart. The Department of Defense provides robust resources 
for military spouses through the Spouse Education and Career 
Opportunities (SECO) program. These resources include access to no-cost 
certified masters-level career coaches available six days a week 
through Military OneSource. These coaches are experts at working with 
military spouses to best highlight their skill sets on resumes and 
address perceived gaps. The SECO program also provides access to the 
more than 400 companies and organizations of the Military Spouse 
Employment Partnership (MSEP) who recognize the value of military 
spouses in the workplace and are committed to recruiting, hiring, 
promoting and retaining military spouses. The SECO program is committed 
to continuing to educate companies regarding the true value of military 
spouses in the workplace.   [See page 35.]
    General Seamands. The Army follows the Defense Health Agency-
Procedural Instruction (DHA-PI) Number 6200.02, ``Comprehensive 
Contraceptive Counseling and Access to the Full Range of Methods of 
Contraception,'' finalized 13 May 2019. This DHA-PI includes procedural 
guidance for access to comprehensive contraceptive counseling and the 
full range of contraceptive methods for pregnancy prevention, to 
include long term contraception and menstrual suppression for active 
duty Service members. Access is provided when feasible and medically 
appropriate, but at a minimum, annually during the Periodic Health 
Assessment (PHA), in support of initial officer and enlisted training, 
and during pre-deployment healthcare screenings. Currently in the Army, 
contraceptive counseling is provided at Entry into Service (i.e. 
Initial Entry Training), at pre-deployment/Soldier Readiness Processing 
Sites, and at PHA and well woman exams. The Army is piloting Walk-in 
Contraceptive Clinics at several military medical treatment facilities 
(MTFs) to include Womack Army Medical Center at Fort Bragg, NC and 
Keller Army Community Hospital at West Point, NY. In addition to 
counseling being provided at various points throughout the Soldier's 
healthcare delivery process, alternative educational routes are also 
provided such as the mobile application released in February 2019 
called Decide + Be Ready: a Birth Control Decision Aid. Army programs 
at MTFs provide varying types of long- and short-acting reversible 
contraceptive methods. Most MTFs will dispense a minimum 180-day supply 
of maintenance medications, to include oral contraceptives, and provide 
the Soldier with information on how to enroll in the TRICARE Deployment 
Prescription Program to conveniently obtain refills.   [See page 15.]
    General Seamands. Assisted Reproductive Services (ARS), such as In 
Vitro Fertilization (IVF), are available at certain Military Treatment 
Facilities (MTFs) but costs are borne by the beneficiary including 
active duty service members (ADSMs) in most circumstances. Walter Reed 
National Military Medical Center, Naval Hospital San Diego, San Antonio 
Military Medical Center, Madigan Army Medical Center, Tripler Army 
Medical Center, Womack Army Medical Center, and Wright Patterson Air 
Force base offer IVF. ARS is not covered under the TRICARE program. 
Under statutory authority ARS is available to certain categories of 
seriously ill or injured ADSMs and their lawful spouse at no-cost in 
both TRICARE and the MTFs listed above. Specifically, ADSMs with 
urogenital trauma who are unable to conceive naturally to have biologic 
children and ADSMs with a diagnosis of cancer and who will be 
undergoing gonadotoxic therapy such as radiation and/or chemotherapy.   
[See page 15.]
    General Seamands. Unfortunately, only 29 percent of America's youth 
qualify for service without a waiver. The most common reasons that 
applicants are denied the opportunity to join the Army are medical 
limitations (28 percent of the 29 percent) which includes both weight 
and mental health issues. Drug use is the next largest single 
disqualifier at 8 percent of the 29 percent. Most disqualified 
applicants are disqualified for a combination of reasons.   [See page 
28.]
    General Seamands. It is unfortunate that any employer would 
discriminate against a military spouse. In order to help spouses 
overcome this challenge, the Army published a policy for Home-Based 
Businesses (HBBs). This directive encourages senior commanders or 
delegates to approve requests for HBBs when they meet all local 
licensure and legal requirements, and to grant reciprocity for HBBs as 
spouses move from one installation to another. Additionally, the Army 
issued policy authorizing the reimbursement of state licensure and 
certification costs for a spouse if the spouse is relocating because of 
a permanent change of station (PCS) for their Soldier sponsor. To 
further assist Army spouses in finding meaningful employment, the Army 
Community Service offers an Employment Readiness Program (ERP). The ERP 
offers up to date information on available employment opportunities, 
local market and job trends, education, and volunteer opportunities. 
The ERP coordinates with installation Civilian Personnel Offices, 
community agencies, Department of Defense contractors, local employers, 
and the DOD Military Spouse Employment Partnership. The Army also 
leverages the My Career Advancement Account Scholarship to connect 
eligible military spouses with education needed for portable job 
opportunities. Lastly, the Army Family Action Plan (AFAP) recently 
furthered spouse employment opportunities. AFAP championed a change to 
OPM policy which authorizes an employee federal career tenure for three 
years of cumulative service. This is a change to the previous policy of 
consecutive service which was problematic for Army spouses. 
Additionally, with the help of Congress, the National Defense 
Authorization Act for Fiscal Year 2017 removed the two-year PCS 
eligibility window to use noncompetitive appointment eligibility for 
military spouses. With this legislative change, a military spouse may 
now use the noncompetitive appointment any time during the duration of 
the of the Service member's assignment at a new duty station. Prior to 
this change, many spouses were not able to use this eligibility within 
the two-year window due to circumstances beyond their control.   [See 
page 35.]
    Admiral Burke. Applicants for naval service can be declined the 
opportunity to enlist if they are disqualified for one or more reasons, 
which can be broken down into four broad categories:
    1. Moral Character/Conduct: An applicant is considered ineligible 
for naval service if he or she has:
    <bullet>  any form of judicial restraint (bond, probation, 
imprisonment, or parole).
    <bullet>  been convicted of a felony. Persons convicted of felonies 
may request a waiver to permit their enlistment with the exception of 
those who have a state or federal conviction, or a finding of guilty in 
a juvenile adjudication, for a felony crime of rape, sexual abuse, 
sexual assault, incest, any other sexual offense, or when the 
disposition requires the person to register as a sex offender. Waivers 
are not automatic and approval is based on each individual case.
    <bullet>  been previously separated from the Military Services 
under conditions other than honorable or for the good of the Military 
Service concerned.
    <bullet>  exhibited antisocial behavior or other traits of 
character that may render the applicant unfit for service.
    <bullet>  received an unfavorable final determination by the 
Department of Defense Consolidated Adjudication Facility on a completed 
National Agency Check with Law and Credit (NACLC/Tier 3) or higher-
level investigation during the accession process.
    <bullet>  been a trafficker (supplier) of illegal drugs.
    <bullet>  reservations about Military Service because of religious, 
moral, or ethical reasons.
    <bullet>  displayed behavior that is not consistent with military 
service.
    <bullet>  participated in any organization that espouses extremist/
supremacist causes, attempts to create illegal discrimination or 
advocates use of force/violence against the U. S. Government.
    <bullet>  been convicted of a hate crime or received adverse 
adjudication resulting from a hate crime offense.
    <bullet>  ever tested positive for drugs on a Military Entrance 
Processing Station Drug and Alcohol Test.
    2. Medical: Navy Recruiting Command (NRC) ensures individuals 
considered for appointment, enlistment, or induction into the Navy are:
    <bullet>  free of contagious diseases that may endanger the health 
of other personnel.
    <bullet>  free of medical conditions or physical disabilities that 
may reasonably be expected to require excessive time lost from duty for 
necessary treatment or hospitalization, or may result in separation 
from the Navy for medical unfitness.
    <bullet>  medically capable of satisfactorily completing required 
training and initial period of contracted service.
    <bullet>  medically adaptable to the military environment without 
geographical area limitations.
    <bullet>  medically capable of performing duties without 
aggravating existing physical disabilities or medical conditions.
    NRC maintains a Medical Waivers Division focused on consideration 
of individual medical waivers.
    3. Height/Weight and Body Composition: Excess body fat and/or the 
inability to pass the Navy's physical fitness assessment can be 
detrimental to health, safety, longevity, stamina, and detract from 
good military appearance. Applicants must be at least 57 inches in 
height, not to exceed 80. Male and female applicants are screened 
against height and weight standards. When the applicant exceeds maximum 
weight for height, and their abdominal circumference exceeds 39 inches 
(for males) or 35.5 inches (for females), body fat content is then 
determined. Body fat must not exceed DOD standards of 26 percent for 
males or 36 percent for females as prescribed in DODI 1308.3, DOD 
Physical Fitness and Body Fat Programs Procedures. Physical fitness, 
not an element of body composition, is evaluated at boot camp. Recruits 
are required to pass service physical fitness requirements before 
graduating Boot Camp.
    4. Mental/Vocational Aptitude: Overall aptitude requirements for 
enlistment and induction are based on applicant scores on the Armed 
Forces Qualification Test (AFQT) derived from the Armed Services 
Vocational Aptitude Battery. Applicants must score a minimum 31 to meet 
minimum enlistment eligibility. Minimum of 50 AFQT for applicants with 
a General Educational Development certificate is required for 
enlistment purposes.   [See page 28.]
    Admiral Burke. Military spouses are skilled, diverse and motivated 
with a strong work ethic. Employers who choose not to hire military 
spouses are ignoring an incredible talent pool of potential employees. 
The Department of Defense (DOD) has programs, like the Military Spouse 
Employment Partnership, that educate potential employers on the value 
of hiring military spouses and work with partner companies to increase 
employment opportunities for military spouses and, when possible, 
maintain those opportunities as they relocate. Our Navy Family 
Employment Readiness Program works with Navy spouses to identify and 
promote portable and sustainable career and employment opportunities, 
including small business ownership and entrepreneurship. In June, as 
authorized by Congress, we will announce Navy's program to reimburse 
spouses for relicensure fees up to five hundred dollars resulting from 
a state-to-state change of duty station. There is certainly more work 
to be done. DOD's Defense State Liaison Office continues to work with 
the various State legislatures to standardize policies, allow a waiver 
or grace period for the spouses' current licenses, and enact 
legislation that would enable military spouses to transfer their 
licenses through occupational licensure compacts when they transfer to 
a new State. We would certainly appreciate any support you could lend 
to that effort.   [See page 35.]
    General Kelly. The Air Force provides a once a week, group, 
contraceptive education and access clinic to all female trainees during 
basic training in addition to individual counseling about 
contraceptives during routine individual sick call appointments. These 
one-on-one appointments educate patients on birth control methods 
tailored to their individual questions and medical needs. At Military 
Treatment Facilities, all female beneficiaries receive regular 
contraceptive education as part of routine primary and women's health 
care, including annual preventive health assessments. Additional 
information about contraceptives is provided whenever requested by the 
beneficiary tailored to their individual needs.   [See page 15.]
    General Kelly. Assisted Reproduction Services (ARS), such as In 
Vitro Fertilization (IVF) are available as certain Military Treatment 
Facilities (MTFs) but costs are borne by the beneficiary including 
active duty service members (ADSMs) in most circumstances. Walter Reed 
National Military Medical Center, Naval Hospital San Diego, San Antonio 
Military Medical Center, Madigan Army Medical Center, Tripler Army 
Medical Center, Womack Army Medical Center, and Wright Patterson Air 
Force Base offer IVF. ARS is not covered under the TRICARE program. 
Under statutory authority ARS is available to certain categories of 
seriously ill or injured ADSMs and their lawful spouse at no-cost in 
both TRICARE and the MTFs listed above. Specifically, ADSMs with 
urogenital trauma who are unable to conceive naturally to have 
biological children and ADSMs with a diagnosis of cancer and who will 
be undergoing gonadotoxic therapy such as radiation and/or 
chemotherapy.   [See page 15.]
    General Kelly. The most common reasons people are disqualified for 
service are pre-existing medical conditions, law violations, inability 
to score the minimum on the Armed Services Vocational Aptitude Battery 
test and drug usage. Our Service Secretary also retains authority to 
waive any of these accession standards to be able to enlist a uniquely 
qualified and talented individual who would fill a key position within 
the force.   [See page 28.]
    General Kelly. The Air Force is highly committed to ensuring we 
maximize opportunities for spousal employment. We well know the 
challenges that AF spouses face as they move to various locations 
within the United States and abroad. We have numerous programs that 
provide military spouses an advantage in seeking employment within the 
DOD and the Federal government. Our Military Spouse Preference (MSP) is 
intended to lessen the career interruption of spouses. It has been 
recently streamlined to increase our military spouses' flexibility to 
apply for jobs that better meet their needs and personal desires for 
employment. Since the Air Force transitioned to the new process, we 
have received an increase of 4,122 applicants, resulting in 281 
military spouses being hired in the past five months. In the public 
sector, it is much more challenging as we do not have authority over 
public sector employment. However, the Air Force is deeply committed to 
helping our spouses secure employment. Our Airman and Family Readiness 
Centers offer employment assistance for spouses which includes goal 
setting, job search, resume and interview preparation, and career 
planning. Installations team with the local community on employment 
initiatives through job fair networks. We have also been reinforcing 
the ability of spouses to contribute immediately as well as removing 
barriers to employment. For example, the portability of occupational 
licenses across state lines is a challenge getting attention at the 
highest levels. The Secretary of the Air Force visited with members of 
National Governors Association, and together with other Military 
Service Secretaries signed a memorandum on 23 February 2018 to address 
licensure reciprocity for spouses. Also, as of May 2019, the Air Force 
has been reimbursing re-licensing/re-certification costs for up to $500 
for spouses of military members resulting from a Permanent Change of 
Station. As of 16 September, this new program processed 89 claims for 
over $17K in support. With regard to potential ``discrimination'' by 
employers, it is something we hear about quite often. The Air Force 
would be supportive of some type of employment statute similar to 
protections provided to our Reserve and Guard members. In this case, 
rather than a guarantee of employment which is not feasible, there 
could be statutory language broadly prohibiting employers from 
discriminating against otherwise qualified spouses simply based on 
their affiliation to the military. Of note, with respect to the unique 
issues we face overseas, the Services have stood up a tri-Service 
working group (Army, Navy and Air Force), to investigate and build 
recommendations for change toward making it easier for spouses to find 
employment overseas. This effort is ongoing. We greatly appreciate the 
previous support of Congress and the continuing interest in supporting 
our military spouses.   [See page 35.]
    General Rocco. Chairwoman Speier--thank you for the question. Navy 
Medicine is responsible for providing our Marines--and their families--
with health care services. As such, the following information from the 
Navy's Bureau of Medicine and Surgery is provided in response to your 
specific question on in vitro fertilization: Reproductive endocrinology 
services, or assisted reproductive technology, encompasses a wide range 
of treatments to include ovulation induction, egg retrieval, sperm 
retrieval and semen analysis, embryology, intrauterine insemination, 
freezing of sperm and eggs (cryopreservation), in vitro fertilization 
(IVF) and embryo transfer. These services, such as In Vitro 
Fertilization (IVF), are covered for seriously ill or injured active 
duty service members who have suffered urogenital trauma, or are 
seriously ill, and are unable to procreate naturally. Current TRICARE 
policy allows for up to three completed IVF cycles and no more than six 
IVF cycles being initiated. The costs of cryopreservation and storage 
of embryos is covered for up to 3 years. Service members who may be 
electively seeking reproductive endocrinology services, or who have a 
diagnosis of infertility that is not due to injury or illness, are able 
to access these services through a referral from their provider at 
several Military Treatment Facilities. Within the Navy, REI services 
are offered at Naval Medical Center San Diego and Naval Medical Center 
Portsmouth. The scope of REI services available depends upon what 
contracts are available locally with facilities that offer 
cryopreservation and storage, the availability of embryology 
laboratories, and whether a reproductive endocrinologist is assigned at 
that location. These services are available to service members as well 
as all other TRICARE eligible beneficiaries. The costs for required 
embryology laboratory services, and any other service that is not 
provided by the MTF, are borne by the beneficiary.   [See page 15.]
    General Rocco. Screening is a continual process from the initial 
meeting with a recruiter through graduation from MOS school. Screening 
compares an applicant's mental, moral, medical, and physical 
qualifications against the enlistment criteria. Areas that are screened 
include:
    a. Age: 17-28
    b. Citizenship: must be native born, naturalized, dual citizen, 
alien who is a lawful permanent resident, non-immigrant alien, other 
nationals.
    c. Education: the Commandant of the Marine Corps requires 95% of 
all enlisted applicants to have an equivalent to a traditional high 
school graduation.
    d. Drug and alcohol involvement: screened to the extent of their 
drug, alcohol, or other substance involvement.
    e. Mental aptitude: mentally tested to determine if they meet the 
aptitude standards established for enlistment and determine appropriate 
MOS assignments.
    f. Physical aptitude: required to meet specific physical standards.
    g. Moral conduct: screened to prevent enlistment of those with 
social habits that may be a threat to unit morale and cohesiveness, or 
may become serious disciplinary problems in the Marine Corps.
    h. Prior service: provide prior service Marines who possess 
critical skills in a designated MOS an opportunity to resume their 
career in the Marine Corps. Marines who have separated and wish to 
rejoin the service shall meet the same standards as initial accessions 
are required to pass.
    i. Body art (tattoos) or body ornamentation (piercings/gauges): 
must comply with established uniform regulations.   [See page 28.]
    General Rocco. The Marine Corps is working to improve and promote 
spouse employment. We not aware that spousal discrimination when 
seeking employment in communities surrounding military bases is an 
issue. Further, if this is an issue we would likely be prohibited from 
pursuing legal action to combat it as this is separate from the Marine 
Corps and not within the organization's jurisdiction.   [See page 35.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. KELLY
    General Seamands. We have transformed our human capital systems and 
established strong data governance to protect personally identifiable 
information and leverage emerging big data technology to ensure we 
acquire, develop, employ, and retain the right Soldier for the right 
job at the right time over time. The Deputy Chief of Staff, G1 (G1) and 
the Assistant Secretary of the Army (Manpower and Reserve Affairs (ASA 
(M&RA)) are part of the Army Data Board and Army Analytics Board that 
determine highest payoff for data investments, translate strategic 
questions into data projects, and harmonize disparate analytics 
management efforts. The G1 and ASA (M&RA) use a combination of 
quantitative and qualitative analysis. Our G1 analysts examine enlisted 
and officer separations by category and existing exit surveys to inform 
recruiting and retention decisions. The Army Talent Management Task 
Force (TMTF) and Army Research Institute (ARI) are developing a new 
exit and retention survey to collect more detailed responses. The 
Army's Integrated Personnel and Pay System (IPPS-A), our on-line system 
to provide integrated personnel, pay, and talent management 
capabilities in a single system to all Army components incorporates 
audit trails of all transactions, encrypts data, requires electronic 
signatures, and incorporates additional military and industry-standard 
cyber protection measures. The Army Analytics Group's Person-event Data 
Environment (PDE) is an enterprise platform for integrating data across 
the human capital enterprise--linking analyst, data, and tools to solve 
human capital problems and ensure human subject protection regulations 
and privacy rules are followed and auditable. This creates a secure and 
protected space for analysts to conduct studies and to test new 
analytic tools and algorithms, to include predictive analytics to 
provide valuable insights on human capital to the Army.   [See page 
16.]
    Admiral Burke. Through the collection of data into an Authoritative 
Data Environment (ADE), Navy is establishing analytical capabilities 
that will better allow MyNavy HR to evaluate Sailor behavior, more 
accurately and efficiently assign talent, better design and account for 
compensation packages, and generate a system that affords greater 
flexibility, permeability, and Sailor choice. This capability is a 
critical element of the Navy's Sailor 2025 program, which is designed 
to modernize personnel management along with training policies and 
systems to more efficiently identify, recruit, and train talented 
people and manage the force while improving warfighting readiness. In 
addition to traditional exit surveys, we have developed career 
milestone surveys for Sailors choosing to stay Navy. Since 2014, we 
have conducted both exit and milestone surveys, both of which focus 
heavily on retention factors and primary influencers to stay or leave 
the Navy. The milestone survey is offered to enlisted sailors 18 months 
prior to their Soft End Active Obligated Service (SEAOS) and 15 months 
prior to the Mandatory Service Requirement date for officers. The exit 
survey is offered 6 months prior to SEAOS for enlisted sailors and 6 
months prior to Estimated Date of Leaving Navy for officers. The data 
for both surveys is stored in the Navy's personnel system from which we 
generate quarterly reports. Through the collection of data into an 
Authoritative Data Environment (ADE), Navy is establishing analytical 
capabilities that will better allow MyNavy HR to evaluate Sailor 
behavior, more accurately and efficiently assign talent, better design 
and account for compensation packages, and generate a system that 
affords greater flexibility, permeability, and Sailor choice. This 
capability is a critical element of the Navy's Sailor 2025 program, 
which is designed to modernize personnel management along with training 
policies and systems to more efficiently identify, recruit, and train 
talented people and manage the force while improving warfighting 
readiness. In addition to traditional exit surveys, we have developed 
career milestone surveys for Sailors choosing to stay Navy. Since 2014, 
we have conducted both exit and milestone surveys, both of which focus 
heavily on retention factors and primary influencers to stay or leave 
the Navy. The milestone survey is offered to enlisted sailors 18 months 
prior to their Soft End Active Obligated Service (SEAOS) and 15 months 
prior to the Mandatory Service Requirement date for officers. The exit 
survey is offered 6 months prior to SEAOS for enlisted sailors and 6 
months prior to Estimated Date of Leaving Navy for officers. The data 
for both surveys is stored in the Navy's personnel system from which we 
generate quarterly reports. Navy also conducts two large Navy wide 
surveys bi-annually: the Personnel and Professional Choice survey and 
the Health of Force (HoF) survey. Navy survey specialists analyze the 
data from the HoF survey and provide senior leaders with additional 
information such as retention, command climate, and satisfaction with 
Navy employment. Lastly, in addition to these four large surveys, we 
conduct many smaller pulse surveys in coordination with, and at the 
Commanding Officer's discretion. Topics focus on policy changes or 
program specific issues. Most recently, throughout our personnel system 
transformation and as part of our ongoing Sailor 2025 efforts, we 
developed fleet integration teams, which hold focus groups with 
Sailors, spouses, and family groups. As an example, last year, over a 
two month period, our fleet integration teams traveled across the fleet 
to better understand the pain points associated with PCS moves. These 
direct conversations resulted in 16 independent solutions, two of which 
we are about to put into motion (CAC-less MyPCS Mobile enabled website 
and Government Travel Charge Card (GTCC) pilot program). These are just 
two examples of how our team is evolving into an innovative, agile, and 
responsive team, providing unparalleled service to our Sailors, their 
families, and the Fleet. We will continue to apply cutting edge human 
resource management practices and technology to become a customer-
experience driven organization that demonstrates, through action, that 
we value our Sailors and their families. Our Transformation and Sailor 
2025 efforts continue to be vital in achieving this goal. As part of 
our Transformation effort, we are collapsing and integrating as much of 
our data, economic data, and other pertinent data into our ADE. Once 
fully integrated and populated, the ADE will provide our analysts with 
a `single source of truth' data repository coupled with the latest 
accredited Machine Learning software and algorithms, enabling them to 
better inform and identify why our sailors stay or leave and who are 
the most talented.   [See page 16.]
    General Kelly. The Air Force conducts Exit and Retention surveys 
with the purpose of assessing factors influencing an Airman's decision 
to remain in the Air Force. Surveys have been conducted since 1989 and 
are governed by AFI 38-501, Air Force Survey Program. a) The Exit 
Survey is conducted on a continuous basis when members are separating 
from the military. b) The Retention Survey is conducted every two years 
with the most recent completed in 2017. The 2019 Retention Survey is 
currently underway. Retention surveys are administered to Air Force 
enlisted (E1-E9) and officers (O1-O6), and are representative of the 
Air Force Total Force (RegAF, AF Reserve, & Air National Guard). 
Questions are geared toward the member's experience throughout his/her 
Air Force career. Data is collected and analyzed to provide information 
on member's satisfaction throughout their career, which includes 
current job, assignment and location. Information is also obtained 
concerning the member's plans on staying past their current commitment, 
and intentions for staying at least until retirement eligibility. The 
AF also uses survey results to inform critical skills retention bonus 
and quality of life policies. The 2017 Retention Survey revealed that 
the Top 10 reasons (RegAF) Airmen remained in the Air Force were as 
follows:
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]   [See page 16.]


    General Rocco. Retaining Marines whose past service and future 
potential continues to make the Corps stronger is one of our highest 
priorities. As the Marine Corps manages our force, we work to retain 
the very best available Marines capable of fulfilling our leadership 
and operational needs. This is accomplished through a targeted 
retention campaign that includes competitive career designation process 
for officers and a thorough evaluation process for enlisted Marines, 
both of which are designed to measure, analyze, and compare our 
Marines' performance and accomplishments. Using historical data on 
retention coupled with the present manpower requirements, we calculate 
required retention goals. We utilize historical data on retention 
behavior to focus our incentive pay programs. This allows the Marine 
Corps to maintain healthy military occupational specialties and fill 
hard to retain positions, such as cyber security technicians, special 
operators, and counter intelligence specialists as well as increase the 
inventory stability of the aviation officer population. In addition, we 
are now collecting data on multiple aspects of military service that 
will shape future retention policies and programs: Surveys: The Marine 
Corps has developed a survey program designed to investigate not only 
why Marines leave but why they stay and why they join. The Exit and 
Milestone Longitudinal Survey (EMLS) consists of three specific 
surveys, (1) Entry, (2) Milestone (reenlistment, career designation, 
and promotion), and (3) Exit. Fiscal Year 2018 was the first full year 
of data collection. In approximately three years, we anticipate we will 
achieve a representative sample to make data-driven policy decisions. 
Artificial Intelligence: The Marine Corps has an Artificial 
Intelligence Line of Operation with the desired end state of accurately 
predicting attrition, performance, behaviors, and attitudes and 
consider these predictions as additive factors in not only retention 
but recruitment, talent management, and increasing lethality. Our first 
Line of Effort is underway with the Tailored Adaptive Personality 
Assessment System (TAPAS) pilot study. This initiative will inform and 
guide future Lines of Effort, thus reinforcing our efforts to retain 
the best and most qualified Marines.   [See page 16.]
                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MRS. DAVIS
    Mr. Stewart. As of April 30, 2019, over 615,000 Service members are 
enrolled in the Blended Retirement System (BRS). Of this total number, 
about 475,000 are Active Component (AC) members and about 140,000 are 
in the Reserve Component (RC). This means nearly 40 percent of the AC 
is participating in BRS, either because they opted-in or were 
automatically enrolled, while about 20 percent of the RC is 
participating in BRS (also via opt-ins or automatic enrollment). These 
numbers and percentages will continue to increase as all new entrants 
are brought in under BRS. The Department has consistently emphasized 
that opting into BRS was a personal decision to be made by each 
individual member without influence, targets, or goals. The Department 
provided significant training and made extensive resources and 
financial counseling available to both AC and RC members. This ensured 
that all Service members had access to the necessary tools to make a 
well-informed decision. The lower participation rate among RC members 
can be explained by several possibilities that may have influenced 
their opt-in decisions, but it is impossible to make a generalized 
conclusion about the individual choices made by each eligible member. 
The most significant impact was that the criteria to opt-in was much 
broader for RC members. Because RC members could have any length of 
service as long as they had fewer than the equivalent of 12 active 
years (i.e., fewer than 4,320 retirement points), many RC members, 
though technically eligible to opt-in, were actually far along in their 
careers, and in many cases, already retirement eligible under the 
legacy system. As a percentage, those for whom BRS would have been an 
attractive option was lessened by this larger pool. Also, some RC 
members may have been less inclined to opt into BRS because they 
already have defined contribution plans (i.e., 401k-style plans) 
through their civilian employers and were less incentivized by the 
potential for matching contributions and portability of the Thrift 
Savings Plan (TSP). AC members, on the other hand, did not previously 
have any option for contributing to a 401k-style retirement plan that 
offered matching contributions, so were likely more inclined to see 
this as an attractive incentive, both for its flexibility and 
portability. We know that AC and RC members tend to view retirement as 
an incentive differently. AC members tend to have more clarity about 
their personal preferences for long-term service, meaning the portable 
benefits of BRS would have been more appealing to those active members 
who are confident they will leave service prior to serving a full 20 
years. Receipt of military retired pay for RC members is often more 
distant and can be perceived less significantly as part of an 
individual's total retirement plan when compared to AC members. As 
such, RC members may have felt there was less risk from choosing to 
stay in the legacy plan even if they are not certain they ultimately 
serve for 20 years. Given these differences, it is not totally 
surprising that greater percentages of AC members than RC members made 
the decision to opt into BRS. Despite the differing opt-in rates among 
AC and RC members, we are confident that all of our members were 
educated and made informed choices based on their own personal 
situations.   [See page 26.]
    General Seamands. As of April 30, 2019, over 243,000 soldiers are 
enrolled in the Blended Retirement System (BRS). Of this total number, 
about 155,000 are Active Component (AC) soldiers and about 88,000 are 
in the Army Reserve or National Guard. This means nearly 33 percent of 
the AC is participating in BRS, either because they opted-in or were 
automatically enrolled, while about 20 percent of the Army Reserve and 
Army National Guard soldiers are participating in BRS (also via opt-ins 
or automatic enrollment). These numbers and percentages will continue 
to increase as all new entrants are brought in under BRS. BRS is a 
personal decision made by each individual member without influence, 
targets, or goals. The Army provided significant training and made 
extensive resources and financial counseling available to both AC and 
RC members. We believe all Soldiers had the necessary tools to make an 
informed decision. The slightly lower participation rate among the RC 
could be attributable to several broad reasons. For example, some RC 
members may have been less inclined to opt into BRS because they 
already have defined contribution plans (i.e., 401k plans) through 
their civilian employers and were less incentivized by the potential 
for matching contributions and portability of the Thrift Savings Plan 
(TSP). The AC members, on the other hand, did not previously have any 
option for contributing to a 401k-style retirement plan that offered 
matching contributions, so were likely more inclined to see this as an 
attractive incentive, both for its flexibility and portability.   [See 
page 26.]
    Admiral Burke. At the end of the opt-in window of December 31, 
2018, approximately 11 percent of Navy Reserve Component (RC) members 
eligible to opt-in to the Blended Retirement System (BRS) chose to 
enroll in BRS compared to approximately 31 percent of eligible Active 
Component (AC) members. This lower (RC) opt-in was fully expected for 
several reasons. BRS is more attractive to Sailors with low years of 
service. Since most RC members have prior active service, members with 
low years of service are a relatively small percentage of the RC. 
Additionally, most RC members join the reserves because they want to 
continue their naval service career, so BRS was generally less 
attractive to them. RC members are also more likely to have a defined 
contribution plan (401k) through their civilian employer and it is 
likely the Thrift Savings Plan matching contribution offered by BRS was 
less attractive. While there is some disparity in opt-in rates between 
AC and RC members, all were trained on their options and had access to 
the resources needed to make the best decision for them based on their 
personal situation.   [See page 26.]
    General Kelly. The Blended Retirement System (BRS) achieves its 
goal of providing a portable retirement benefit by reducing the legacy 
pension. Therefore, the closer a member gets to reaching 20 years of 
service, and qualifying for retired pay, the more advantageous it is 
for the member to remain in the legacy retirement system. Eligibility 
to opt-in to BRS is based on 12 years of service. For members of the 
regular component, this is a straightforward number of years. For 
members in the Reserve component (Guard and Reserve), this 12 years of 
service is based on participation points used to determine retired pay. 
The qualification threshold is based on 360 points per year times 12 
years which is 4,320. While Regular Component members must serve for 20 
years to qualify for retired pay, Reserve component members must serve 
20 ``good'' years. Minimum participation to have a ``good year'' is to 
earn 50 points. Therefore, it is mathematically possible for a member 
of the Reserve Component to be retirement eligible with 20 good years 
and 1,000 points. The result of basing eligibility on 4,320 points is 
that almost all members of the Reserve Component were eligible. We 
should expect as members get closer to reaching 20 years of service 
(good years), they will be less likely to opt-in to BRS and a large 
proportion of the eligible members in the Reserve Component had more 
than 12 good years toward retirement. Additionally, many members in the 
Reserve Component are already in the civilian workforce, so the 
portability feature of BRS is not as significant. These factors account 
for the difference in opt-in rates between the Regular and Reserve 
Components. The opt-in rates were:
    Regular Component: 29.8%
    Air Force Reserve: 11.5%
    Air National Guard: 11.5%
[See page 26.]
    General Rocco. As of 30 April 2019, 81,417 active component and 
16,539 reserve Component Marines elected to enroll in the Blended 
Retirement System.   [See page 26.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MR. BERGMAN
    Mr. Stewart. We estimate the cost, per individual, from the day 
they walk in the door until we get them through boot camp to be around 
$34,000. This data point is a DOD average and does not include the cost 
of skill training--just recruiting and basic military training.   [See 
page 28.]
    General Seamands. The average cost in fiscal year 2018 of training 
a Regular Army (RA) recruit from the time the individual walks into a 
recruiting center until the recruit reaches their first duty station 
was $68.2K. This includes enlistment bonuses, recruit pay, recruiter 
operations and support, entrance processing costs, training operations 
and support costs. If marketing costs are included, the average cost of 
a RA recruit was $72.3K. The actual cost of a recruit varies depending 
on the Military Occupation Specialty (MOS), incentives, and bonuses.   
[See page 28.]
    Admiral Burke. The first two phases of the Force Development supply 
chain consist of talent acquisition/onboarding and initial recruit 
training. It costs the Navy on average a total of $32,795 per recruit 
from initial recruitment to Recruit Training Command's (RTC) Basic 
Military Training course graduation. In fiscal year 2018, it cost an 
average of $15,616 per recruit for talent acquisition/onboarding, which 
included Marketing and Advertising, locating and screening applicants, 
collecting documentation, transporting applicants to Recruiting 
Stations, Military Entrance Processing Stations and RTC. In fiscal year 
2018, it cost an average of $11,829 per recruit for RTC. This included 
military and civilian staff salaries, student pay, and allowances. Base 
operating support functions like facility operations and maintenance, 
force protection, vehicle operations and maintenance, and fire and 
emergency services, cost an additional $5,350 per recruit graduate.   
[See page 28.]
    General Kelly. The average cost to recruit and train an Airman 
through BMT in 2018 was $36,006.   [See page 28.]
    General Rocco. The Total Military Personnel Appropriation cost 
estimate is $9,186.00 per Marine. This estimate is based on 13 weeks of 
training for the E-1 population.
    Line Item Details:
        Base Pay = $4,206.00
          RPA = $1,195.00
          FICA = $322.00
          Clothing = $1,136.00
          Food = $696.00
          PCS = $1,356.00
        Personnel Structure (Instructors): $275
        *FY18 recruiting mission was 36,891
[See page 28.]
                                 ______
                                 
            RESPONSES TO QUESTIONS SUBMITTED BY MS. HAALAND
    Mr. Stewart. The JROTC program is not a recruiting tool for the 
military. Although some JROTC students may enlist directly from high 
school or several years after high school, the Department of Defense 
does not track how many JROTC students enter the military. It also does 
not maintain any demographic data on JROTC participants' precisely 
because it is not a recruitment tool. The JROTC program provides a 
sense of accomplishment and teaches students valuable lessons in 
citizenship, service to the United States, and personal responsibility. 
It does not condition young people for life in the military, notably 
the participants are below the age for recruitment, but it does help 
prepare young people for the challenges each will face as they grow 
into adulthood. Enrollment in the JROTC program is voluntary and any 
high school student may participate regardless of gender, race, 
religion, and sexual orientation as long as they can meet the physical 
fitness standards and academic responsibilities.   [See page 29.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 16, 2019

=======================================================================

      

                   QUESTIONS SUBMITTED BY MS. SPEIER

    Ms. Speier. The FY19 NDAA included DOPMA reforms that give the 
services broader leeway and discretion in managing officers and their 
career paths. How are each of the services and DOD conceptualizing 
these reforms? How have the services and DOD begun to use the 
authorities included? What instructions and authorities have been given 
to personnel officials at which levels? What values underlie the 
application of these authorities to managing officer corps? How are the 
new authorities being used to promote diversity, diversity of 
experience, and career flexibility within the various officer corps?
    Mr. Stewart. First, on behalf of the Department and the Military 
Services, I thank Congress for implementing the most significant 
changes to DOPMA/ROPMA in a generation. In a historically competitive 
job market, our charge of commissioning and retaining our nation's top 
talent remains challenging. The seven major officer corps talent 
management authorities provided in the FY19 NDAA have all been 
implemented through DOD policies. The Military Services have already 
begun using these authorities. Several communities across the Services 
have raised or removed the upper age limitations, as authorized by 
section 501. We will continue to use this authority, in conjunction 
with the authority granted in section 502, to commission officers with 
experience at higher pay grades, particularly to offer more competitive 
rank and compensation to individuals with critical skill sets to meet 
Service needs. Additionally, the incentives authorized in sections 503 
and 504 have been met with enthusiasm, both by the Services and by 
Service members. Through standardizing the temporary promotion 
opportunity for officers, the Military Services are better able to 
quickly fill critical skill sets and provide retention incentives for 
highly talented officers. Likewise, the Services' newly authorized 
ability to reorder promotion lists based on merit has quickly proven to 
be a popular method to reward superior performance with the incentive 
of earlier promotion, without additional tax-payer burden. The 
remaining authorities granted in sections 505, 506, and 507 challenge 
the DOPMA premise of ``up or out,'' with ``up and stay,'' when 
appropriate. As highlighted in the Department's recent report to 
Congress on the alternate promotion authority, this authorization gives 
the Services incredible flexibility for targeted retention and 
promotion of talented officers. The challenge in immediate execution of 
this authority is the need to reasonably observe the effects of 
implementing the other officer management modernization changes from 
the FY19 NDAA. In aggregate, these provisions enable the Department to 
attract and retain a diversity of talent and experience to continually 
evolve the officer corps and meet the demands of our ever-changing geo-
political landscape.
    Ms. Speier. The FY19 NDAA included DOPMA reforms that give the 
services broader leeway and discretion in managing officers and their 
career paths. How are each of the services and DOD conceptualizing 
these reforms? How have the services and DOD begun to use the 
authorities included? What instructions and authorities have been given 
to personnel officials at which levels? What values underlie the 
application of these authorities to managing officer corps? How are the 
new authorities being used to promote diversity, diversity of 
experience, and career flexibility within the various officer corps?
    General Seamands. How are each of the Services and DOD 
conceptualizing these reforms? Talent Management is a top priority for 
the Secretary and the Chief of Staff of the Army. The Army established 
a Talent Management Task Force to modernize the Officer Personnel 
System from an Industrial-Age model to an Information-Age system.
    How have the Services and DOD begun to use the authorities 
included? The Army is aggressively identifying the best use of these 
authorities. Our approach is to develop small-scale pilots to gather 
data and then implement policies that integrate lessons learned from 
these pilots. To date, the Army has already leveraged seven of the 
authorities for pilots or Army-wide policy implementation. Using the 
direct commissioning authority, the Army's Cyber Branch has 
commissioned seven officers. Four of the officers have completed 
training and are currently serving with Army Cyber units. While it has 
not yet been exercised, the Army has integrated the repeal of the 20 
Year Time-In-Service requirement by age 62 with the new direct 
commissioning policy that gives the Army greater access to civilian 
talent. For brevet promotions, the Army will pilot temporary promotions 
with the summer 2020 assignment cycle (officers who move in summer 
2020). Starting with 200 critical positions, select officers will be 
temporarily promoted to the next grade. The Army plans to implement the 
770 positions authorized in the 2019 NDAA over the next year. The Army 
will implement merit promotions with the active component O-4 promotion 
board that convenes in July 2019, and will continue this with 
subsequent promotion boards. The Army is on track to allow officers to 
opt out of promotion boards in fiscal year 2020. Once approved, this 
policy would allow officers to request to opt-out for promotion 
consideration twice per grade. If the officer's request is approved, 
the officer could not compete for promotion until the following year. 
DOD promotions policy was revised in March 2019 to specifically 
instruct members of promotion boards to ``not consider an officer's 
previous decision to opt out of a promotion board'' with prejudice. 
Next, the Army is currently identifying officers with critical skills 
matched against forecasted critical shortages for up to 40 years of 
active service. Once those officers and shortages are identified, we 
will institutionalize selective continuation boards to retain Army 
talent beyond the traditional mandatory retirement date limits to meet 
Army requirements. Lastly, an Army Directive to improve this Federal 
Recognition process is currently being staffed. Once approved, this 
would allow the Secretary of the Army to adjust the date of rank of 
Army National Guard officers who faced a delay, not attributable to the 
action (or inaction) of the officer(s) in receiving Federal recognition 
to the next higher grade. Once approved, the directive ensures timely 
Federal recognition and provides for retroactive pay due to delays in 
the system. Brevet appointments will terminate when the officer is no 
longer serving in a critical position or the officer is promoted to the 
appropriate permanent grade. While officers are in a brevet status, 
they will receive pay and allowances commensurate with the higher 
temporary rank.
    What instructions and authorities have been given to personnel 
officials at which levels? To date, the new Direct Commissioning policy 
has been approved, assigning the Deputy Chief of Staff, G-1, as the 
proponent for the policy and the Assistant Secretary of the Army for 
Manpower and Reserve Affairs as responsible for policy oversight. The 
directive implementing opt out of a promotion board authority is 
expected to be signed shortly, as well as several other policy change 
directives. Once approved, policy instructions will be provided on how 
to implement the policy. The Secretary of the Army is the approval 
authority for many of the new authorities due to the impact of larger 
processes such as appointments and promotions that are then confirmed 
by the Senate.
    What values underlie the application of these authorities to 
managing officer corps? Application of these authorities is guided by 
the principle that we need the right officer in the right assignment at 
the right time, over time. The flexibilities that these authorities 
provide allow us to build readiness and retain talent.
    How are the new authorities being used to promote diversity, 
diversity of experience, and career flexibility within the various 
officer corps? The Army Talent Management Task Force is working to 
modernize the Army's personnel system from a data-poor, industrial-age 
system to a data-rich, information-age system that captures an 
officer's talents--knowledge, skills, and behaviors. It is also 
creating a regimen of assessments to help each officer develop their 
talents and to help the Army better inform the selection of its future 
strategic leaders. Integrated Personnel and Pay System-Army (IPPS-A) 
will be a cornerstone to successfully identify and optimize talent. 
Through the authorities granted in the 2019 NDAA, the Army is 
demonstrating value in a broader diversity and experience by creating 
this system with a granular view of talent. The Army can now offer 
increased flexibility in career paths to permit officers to develop 
this talent. The new authorities allow us to recognize that each 
officer has unique talents, qualifications, and aspirations. We have 
the flexibility to address and optimize each.
    Ms. Speier. The FY19 NDAA included DOPMA reforms that give the 
services broader leeway and discretion in managing officers and their 
career paths. How are each of the services and DOD conceptualizing 
these reforms? How have the services and DOD begun to use the 
authorities included? What instructions and authorities have been given 
to personnel officials at which levels? What values underlie the 
application of these authorities to managing officer corps? How are the 
new authorities being used to promote diversity, diversity of 
experience, and career flexibility within the various officer corps?
    Admiral Burke. How are each of the services and DOD conceptualizing 
these reforms? Our process of conceptualizing these reforms began as a 
review several years ago of the existing Defense Officer Personnel 
Management Act (DOPMA) provisions to identify modifications that permit 
greater officer management flexibility to compete for civilian talent 
and cultivate, retain and reward in-service talent. Navy's DOPMA reform 
proposals, along with those of the other Services conceptualized under 
similar processes, were vetted during working group meetings under 
Department of Defense (DOD) stewardship.
    How have the services and DOD begun to use the authorities 
included? We immediately began development of programs to implement 
officer personnel management reforms enacted in the John S. McCain 
National Defense Authorization Act for Fiscal Year 2019, including:
    <bullet>  expanded constructive service credit to recruit civilian 
candidates with education, leadership, and experience credentials for 
leadership roles in cyber and engineering fields.
    <bullet>  expanded spot promotion opportunity for captains with 
post-command executive leadership and commanders with operational 
command executive leadership. First board scheduled to convene July 25, 
2019.
    <bullet>  expanded continuation to retain certain control grade 
officers with targeted skills in aviation, intelligence, acquisition 
corps, and as attaches beyond the traditional statutory limits. First 
board scheduled to convene in September 2019.
    <bullet>  relaxed the requirement that original appointments be 
granted only to individuals able to complete 20 years commissioned 
service by age 62.
    <bullet>  current execution of merit re-order promotion authority 
to incentivize top performers across all active officer communities. 
Promotions boards are authorized to recommend up to 15 percent of 
selectees for merit reorder. Merit reordered officers will be promoted 
in the first promotion increment. Additionally, we plan to exercise 
promotion deferment authority beginning with the fiscal year 2021 
promotion board cycle to afford greater flexibility for top performing 
officers whose competitiveness might otherwise suffer due to 
participation in career-broadening and education opportunities
    What instructions and authorities have been given to personnel 
officials at which levels? The following officer personnel management 
instructions issued by the Secretary of the Navy concerning promotions, 
temporary spot promotions, and continuation have been updated to 
include implementation guidance for expanded continuation, merit 
reorder and promotion deferment.
    <bullet>  Department of the Navy Commissioned Officer Promotion 
Program, Secretary of the Navy Instruction (SECNAVINST) 1420.3 of March 
28, 2019
    <bullet>  Temporary Spot Promotion of Officers, SECNAVINST 1421.3L 
of March 12, 2018
    <bullet>  Continuation on Active Duty of Regular Commissioned 
Officers and Reserve Officers on the Reserve Active Status List in the 
Navy and Marine Corps, SECNAVINST 1920.7C of January 22, 2019
    The following officer accession program authorizations have been 
updated and provided to our Recruiting Command and individual officer 
recruiters to implement the expanded constructive service credit 
authorizations enacted in the John S. McCain National Defense 
Authorization Act for fiscal year 2019.
    <bullet>  Active Component Cyber Warfare Engineer Officers
    <bullet>  Active Component Engineering Duty Officers
    <bullet>  Reserve Component Cryptologic Warfare Officers
    <bullet>  Reserve Component Information Professional Officers
    What values underlie the application of these authorities to 
managing officer corps? We are modernizing our personnel policies and 
programs to give Sailors more control and ownership over their careers, 
as well as allow the Navy to adapt to economic changes and 
corresponding effects on the recruiting market and retention. Our 
transformation personnel initiatives are designed to continue to 
recruit and retain the very best talent, empower commanding officers, 
increase transparency and flexibility, provide better tools to Sailors 
and leadership, and give Sailors more choices. This will allow us to 
reward and encourage superior performance with increased options and 
authorities in managing talent.
    How are the new authorities being used to promote diversity, 
diversity of experience, and career flexibility within the various 
officer corps? First, the authorities from John S. McCain National 
Defense Authorization Act for Fiscal Year 2019 allow Navy to find 
talent from a wide breadth of backgrounds and cast a wider net of 
talent, which inherently increases the diversity of experience. Before, 
if the Navy was looking for a senior officer with certain skill sets, 
the only option was to grow one from a 20-30 year career. Now, we are 
able to retain officers with specific skillsets and experience beyond 
statutory limits to keep required knowledge or commission an outside 
candidate with the same specific skillsets up to the paygrade of O-6 
provided they meet the education, leadership, and qualifications. 
Second, the increased flexibility in career paths we have put into 
place promotes diversity by acknowledging there are many paths to a 
successful career. The authorities put into place increase an officer's 
ability to serve while balancing their professional, educational, and 
family goals. By having a multitude of pathways to success, Navy 
increases the appeal of a career to officers with different goals, 
thereby increasing the talent pool and retention. These authorities 
allow us to fill coveted positions with the best and brightest that the 
Navy has to offer.
    Ms. Speier. The FY19 NDAA included DOPMA reforms that give the 
services broader leeway and discretion in managing officers and their 
career paths. How are each of the services and DOD conceptualizing 
these reforms? How have the services and DOD begun to use the 
authorities included? What instructions and authorities have been given 
to personnel officials at which levels? What values underlie the 
application of these authorities to managing officer corps? How are the 
new authorities being used to promote diversity, diversity of 
experience, and career flexibility within the various officer corps?
    General Kelly. The Air Force appreciates the expanded authorities 
and is focusing our execution of them to help drive deliberate 
development of our officers to meet current and future requirements 
across our diverse mission sets and functional communities. We have 
used constructive credit to recruit officers in very competitive cyber 
career fields. As part of our work in revamping our officer promotion 
process we are working to incorporate order of merit promotion 
sequencing, temporary promotions, and alternative promotion authority. 
The last two are being incorporated with our work to redefine our 
officer competitive category structure in order to provide increased 
developmental agility. The DOPMA reforms are currently being developed 
into policy for consideration and execution, understanding that each 
effort is closely linked to one another, and must not be implemented 
disparate of one another. The authorities afford the ability to 
flexibly manage when officers meet promotion eligibility windows, 
promoting the best qualified officers at the right career point along 
their unique development paths, matching the right officers to the 
right requirements at the right time in order to meet institutional 
requirements, while also fostering a more diverse officer pool. We 
think this is key in order for us to develop and deliver the right mix 
of officers we need to satisfy the diverse mission sets tasked to the 
AF as part of the National Defense Strategy.
    Ms. Speier. The FY19 NDAA included DOPMA reforms that give the 
services broader leeway and discretion in managing officers and their 
career paths. How are each of the services and DOD conceptualizing 
these reforms? How have the services and DOD begun to use the 
authorities included? What instructions and authorities have been given 
to personnel officials at which levels? What values underlie the 
application of these authorities to managing officer corps? How are the 
new authorities being used to promote diversity, diversity of 
experience, and career flexibility within the various officer corps?
    General Rocco. The Marine Corps appreciates and is leveraging the 
officer personnel management authorities granted in the Fiscal Year 
2019 National Defense Authorization Act (FY19NDAA). They seek to help 
modernize how we manage our Marines with the goal of recruiting and 
retaining the highest quality talent. Of the authorities available, the 
Marine Corps has implemented lineal list flexibility (merit-based 
promotion list reorder), is exploring opt out methods, and is in the 
final administrative stages of making the Career Intermission Program 
(CIP) permanent (anticipated completion in November of 2019). The 
Marine Corps' Fiscal Year 2021 Major, Lieutenant Colonel, and Colonel 
Promotion Boards executed merit reorder with up to 100 percent of the 
promotion list eligible for merit reorder. We anticipate that this 
authority will benefit the most competitive officers selected for 
promotion as those officers may be moved to the top of the promotion 
list. The authorities allows the Marine Corps the flexibility to design 
the ideal balance within the officer corps to respond to future 
requirements, stabilize the force, drawdown when required by Congress, 
and accurately program and budget the service military personnel 
account. Also, the Marine Corps is planning to offer a new opt out of 
consideration for promotion option for the FY2022 promotion boards. 
These policies are anticipated to positively impact officer 
continuation rates by offering individual officers career flexibility 
from the legacy up or out promotion system. The underlying goal of 
utilizing these reforms is to create career flexibilities and 
ultimately, to retain the highest quality Marines. We want to continue 
to recruit and retain the best men and women of our Nation with diverse 
experiences, advanced education, and valuable critical skills to 
increase our readiness and lethality--so that we continue to be ready 
when the Nation is least ready.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. CISNEROS
    Mr. Cisneros. A recent report from Mission Readiness, an 
organization of retired admirals and generals, states that 71 percent 
of young Americans aged 17-24 are not eligible for military service, 
often due to poor health and fitness or lack of education. How is the 
Department handling the decreasing pool of eligible recruits? Do the 
services need to revisit eligibility standards? What can DOD do to 
increase the pool of eligible recruits?
    Mr. Stewart. The report cited is accurate. Nearly 71 percent of 
young Americans aged 17-24 are not eligible for military service, often 
owing to poor health and fitness or lack of education. These issues 
impact more than just military recruiting and are being addressed by 
states and the federal government. In light of these and other changes, 
the Department continuously reviews the eligibility standards for 
Military Service. Adjustments to these standards are made based on 
findings in the medical community or based on the broad acceptance of 
new social norms. While these issues limit the pool of eligible youth, 
there are a sufficient number of high-quality, qualified youth that are 
eligible to serve. The challenge for the Military Services is how best 
to reach these youth and overcome misperceptions or inaccurate 
information regarding what it means to serve. Today, there are fewer 
veterans to tell their positive stories. When combined with the 
constant messaging from numerous wounded warrior veteran support 
programs, our ability to communicate positive messages about Military 
Service is even more challenging. To expand the pool of high-quality, 
qualified youth who are willing to serve, the Department and the 
Military Services must consistently share the positive message of what 
it means to serve in a way that reaches today's youth.

                                  [all]
</pre></body></html>
